<html>
<title> - UNITED STATES POLICY TOWARDS VICTIMS OF TORTURE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
            UNITED STATES POLICY TOWARDS VICTIMS OF TORTURE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                             JUNE 29, 1999

                               __________

                           Serial No. 106-69

                               __________

    Printed for the use of the Committee on International Relations


                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-381 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
   Grover Joseph Rees, Subcommittee Staff Director and Chief Counsel
                      Douglas C. Anderson, Counsel
                    Gary Stephen Cox, Staff Director
                  Catherine A. DuBois, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Ms. Leslie Gerson, Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights and Labor, U.S. Department of State....     3
Ms. Lavinia Limon, Director, Office of Refugee Resettlement, 
  Department of Health and Human Services........................     6
Ms. Ann Van Dusen, Deputy Assistant Administrator, Bureau for 
  Policy and Program Coordination, U.S. Agency for International 
  Development....................................................     8
Mr. Bo Cooper, Acting General Counsel, U.S. Immigration and 
  Naturalization Service.........................................    11
Dr. Judy Okawa, Director, Program for Survivors of Torture and 
  Servere Trauma, Center for Multi-Cultural Human Services.......    24
Mr. Ali Hoxhaj, Torture Survivor From Kosovo.....................    27
Ms. Ladi Olorunyomi, Torture Survivor from Nigeria...............    29
Mr. M., Torture Survivor from Iran...............................    34
Mr. Douglas A. Johnson, Executive Director, Center for Vitims of 
  Torture........................................................    36

                                APPENDIX

Prepared Statements:

Hon. Cynthia A. McKinney, A U.S. Representative in Congress from 
  the State of Georgia, Ranking Member, Subcommittee on 
  International Operations and Human Rights......................    50
Hon. Christopher H. Smith, a U.S. Representative in Congress from 
  the State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    53
Dr. Judy Okawa, Director, Program for Survivors of Torture and 
  Server Trauma, Center for Multi-Cultural Human Services........    55
Addition Material submitted:

Question submitted for the record by Chairman Smith to Deputy 
  Assistant Administrator Ann Van Dusen and response thereto.....    60
Question submitted for the record by Chairman Smith to Deputy 
  Assistant Secretary Leslie Gerson and responses thereto........    63
Question submitted for the record by Representative Cynthia 
  McKinney to Deputy Assistant Secretary Leslie Gerson and 
  responses thereto..............................................    66
Question submitted for the record by Chairman Smith to Deputy 
  Assistant Secretary Leslie Gerson and responses thereto........    68



       HEARING ON UNITED STATES POLICY TOWARDS VICTIMS OF TORTURE

                              ----------                              


                         Tuesday, June 29, 1999

                  House of Representatives,
Subcommittee on International Operations and Human 
                                            Rights,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:35 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (Chairman of the Subcommittee) presiding.
    Mr. Smith. The Subcommittee will come to order.
    Good afternoon. Today's hearing is on the United States 
policy toward victims of torture around the world. This is the 
latest in a series of hearings in which the Subcommittee on 
International Operations and Human Rights has heard testimony 
on torture and on the lasting damage it causes to its victims 
and to their loved ones. Many of our witnesses have been 
victims themselves. We have heard in the past from a native of 
Uganda who suffered at the hands of the Idi Amin regime, a 
Tibetan physician who was tortured by the Chinese Communists, 
and an American who became a torture victim in Saudi Arabia 
after he had a falling out with his employer, the Saudi Arabian 
government. We have heard testimony from the torture victims, 
dissidents in China and in Vietnam, members of ethnic minority 
groups in Burma and Turkey, of slaves in Mauritania and Sudan, 
and of people the world over whose only offense was their 
belief in God. Today, we will focus on what the U.S. Government 
is doing to help these people and what we ought to be doing.
    In the last year, the United States law with respect to 
torture victims has taken two giant steps forward. The first 
step was the enactment on October 19, 1998 of a section 2242 of 
the Foreign Affairs Reform and Restructuring Act, Division G of 
Public Law 105-277, which finally implemented the non-return 
provision of the U.N. Convention Against Torture and other 
Forms of Cruel, Inhuman, and Degrading Treatment or Punishment. 
Although the United States had ratified the Convention in 1994, 
Congress had never passed legislation implementing article 
three of the Convention, which imposes an obligation not return 
people to countries in which they face subjection to torture. 
So, there was a conflict between our international obligations 
and our domestic immigration law, which allowed, and in some 
circumstances even required, the deportation of people to 
places where it was more likely than not that they would be 
tortured. Section 2242 declared such deportation to be contrary 
to U.S. policy and required the Executive branch to promulgate 
regulations implementing this policy. I am happy to say that 
the Immigration and Naturalization Service recently issued the 
rule required by section 2242, and we will hear testimony today 
on the rule and its implementation.
    The second step came a few days later on October 30 with 
the enactment of Public Law 105-320, the Torture Victims Relief 
Act. I am proud to have been the principal sponsor of this act. 
It authorized $12.5 million over two years for assistance to 
torture victims treatment centers here in the United States, of 
which there are currently 14 and another $12.5 million to 
treatment centers around the world, of which there are about 
175. It also authorized a U.S. contribution in the amount of $3 
million per year to the U.N. Voluntary Fund for Torture Victims 
and required that Foreign Service officers be given specialized 
training in the identification of torture and its long-term 
effects, techniques for interviewing torture victims, and 
related subjects.
    The only provision of the Torture Victims Relief Act that 
has been fully implemented so far is the authorization for an 
increase of U.S. contribution to the U.N. Voluntary Fund. As 
recently as Fiscal Year 1993, the U.S. contribution to the fund 
was only $100,000. In Fiscal Year 1995, it went up to $1.5 
million. For the 1996, the administration proposed to reduce by 
two-thirds that amount, to $500,000. That was the year that I 
first introduced the Torture Victims Relief Act along with 50 
bipartisan co-sponsors. In response to our efforts, the 
administration held the contribution to $1.5 million, and this 
year, I am happy to say, the administration has fully funded 
the $3 million authorization envisioned in the Torture Victims 
Relief Act.
    In other areas, the Executive Branch has not fulfilled the 
mandate of the act. The $5 million authorized for contributions 
of domestic treatments centers during Fiscal Year 1999 has 
apparently not resulted in any increase in contributions to 
such centers, although the Department of Health and Human 
Services has included the $7.5 million authorization for Fiscal 
Year 2000 in its budget request. The news on the foreign 
treatment centers is even less encouraging. AID did not manage 
to find any money in the Fiscal Year 1999 budget for 
contributions to international torture victims treatment 
centers and has not requested an appropriation in Fiscal Year 
2000 for this purpose. I look forward to hearing from our 
Administration witnesses about the reasons for the slow start 
in implementation as well as the future prospects.
    In the meantime, I am proud to announce that today I 
introduced H.R. 2367 along with Tom Lantos, Mr. Gilman, and my 
Ranking Member on this Subcommittee, Ms. McKinney, the Torture 
Victims Relief Act Reauthorization Act. This bill will extend 
and increase the authorization of last year's act to Fiscal 
Year 2003. In each of the three fiscal years covered by the 
proposal, $10 million is authorized for domestic treatment 
centers, $10 million for international centers, and $5 million 
for a U.S. contribution to the U.N. Voluntary Fund for Torture 
Victims.
    Finally, just let me say that I believe the basis for sound 
political policy can be found in the Gospel of Matthew where 
our Lord said that whatever you do to the least of our 
brethren, you do to him. It seems to me that when people have 
been tortured, have been suffered the most cruelest of 
indignities, and have suffered so immensely, the least we can 
do is provide for those individuals through the kind of 
legislation that we have passed in the past and to provide the 
help through the treatment centers. I want to thank in advance 
all of our witnesses who are here today and, beginning with our 
first panel, I would like to begin to introduce them at this 
point.
    Our first panel will consist of Ms. Leslie Gerson who is 
serving as Principal Deputy Assistant Secretary in the Bureau 
of Democracy, Human Rights and Labor. Ms. Gerson's 
responsibilities include multilateral affairs, country reports 
and asylum, indigenous issues, Latin American affairs, and 
bureau management issues. She has previously had positions at 
the Department of State that included Management Analyst, 
Senior Watch Officer, and an Instructor in Consular Law and 
Practice.
    Ms. Lavinia Limon has more than 22 years of professional 
experience in refugee resettlement beginning in 1975 when the 
first refugees from Southeast Asia were sent to Camp Pendelton. 
Ms. Limon became Director of the Office of Refugee Resettlement 
at the U.S. Department of Health and Human Services in August 
1993. As Director, Ms. Limon has managed the resettlement 
process of 6,000 Kurdish asylees airlifted from the border of 
northern Iraq to Guam. In addition to her work at HHS, Ms. 
Limon has extensive background and knowledge of international 
voluntary agency non-profit organizations from various work 
capacities overseas.
    Dr. Ann Van Dusen is serving as Deputy Assistant 
Administrator for the Bureau for Program and Policy 
Coordination at the U.S. agency for International Development. 
Dr. Van Dusen has served the agency for the past 22 years. Some 
of her prior positions were in the Bureau for Asia and Near 
East, Bureau for Global Programs, as well as the Director of 
the Office of Health. She has also done extensive work and 
headed up the program for child survival, and we have had many 
dealings in the past working on those important issues, and I 
applaud her for that. Dr. Van Dusen earned her Doctorate in 
sociology from Johns Hopkins University.
    Mr. Bo Cooper is Acting General Counsel at the United 
States Immigration and Naturalization Service. Since joining 
INS in 1991, Mr. Cooper has served as the Deputy General 
Counsel and as Director of the Asylum and Refugee Law Division 
of the Office of the General Counsel. Mr. Cooper studied law at 
Tulane University in New Orleans.
    Again, I want to thank our very, very distinguished 
witnesses for being here and ask them to please begin. Ms. 
Gerson.

STATEMENT OF LESLIE GERSON, DEPUTY ASSISTANT SECRETARY, BUREAU 
OF DEMOCRACY, HUMAN RIGHTS AND LABOR, UNITED STATES DEPARTMENT 
                            OF STATE

    Ms. Gerson. Thank you very much, Mr. Chairman.
    Mr. Chairman, as you know, the Bureau of Democracy, Human 
Rights and Labor is headed by Assistant Secretary Harold Hongju 
Koh. I will limit my oral remarks but ask that my full written 
statement be included as a part of the record. Assistant 
Secretary Koh asked me to convey his regrets that he cannot be 
with us today and to thank you for holding this hearing. I am, 
however, particularly grateful and gratified to be Assistant 
Secretary Koh's representative today.
    Like others in this room, my interest in this issue is 
personal. My father and his siblings came to this country as 
victims of pogroms in Belarus. My husband and his family in 
Haiti have been victims for a number of years of a range of 
human rights abuses, including death. You have my personal 
commitment to strive to eradicate the odious practice of 
torture. It is clear that its repercussions cut across 
generations and mark us all.
    This is my first appearance before this Committee. However, 
I am familiar with your dedication to human rights and 
democracy issues. I am also familiar with the domestic and 
multilateral support for victims of torture provided by the 
Torture Victims Relief Act of 1998, which was offered by you, 
Mr. Chairman, and signed into law by the President last year. 
For many of us, torture is virtually inconceivable. It is 
simply not part of our frame of reference, but for all too many 
it is a brutal reality that leaves scars for a lifetime. The 
stories of the victims are indeed horrific, and the NGO's, 
institutions, and individuals that serve victims, working to 
heal their physical and psychological wounds are to be 
commended for their important work. They make a positive impact 
on shattered and traumatized lives and make it easier for 
torture survivors to recover and become an integral part of the 
larger community.
    In the second panel this afternoon, you will be hearing 
testimony from experts and witnesses who work with torture 
survivors. Because these witnesses are well-equipped to discuss 
the horrors of torture, the motivation of tortures, and the 
long-term effects of torture, I will limit my remarks to U.S. 
Government efforts to support the international fight against 
torture and to aid those whose lives have been unjustly damaged 
by that torture.
    The United States is formally committed to ending torture 
and helping individuals who have suffered from the debilitating 
practice of torture. As President Clinton said last October 
when he signed the Torture Victims Relief Act, and I quote, 
``The United States will continue its efforts to shine a 
spotlight on this horrible practice wherever it occurs, and we 
will do all we can to bring it to an end.''
    We can be proud that the United States has long played a 
vigorous leading role in the formulation of the United Nations 
Declaration on Protection from Torture and in the negotiations 
on the Convention Against Torture and Other Cruel, Inhuman, or 
Degrading Treatment or Punishment, which was ratified in 1994. 
The United States is the largest single donor to the United 
Nations Voluntary Fund on Torture, providing $3 million in 
Fiscal Year 1999. I would also briefly mention that Assistant 
Secretary Koh has discussed with Ambassador Swett, our 
representative to Denmark, ideas for working with the Danish 
government to honor and give moral support to torture victim 
support organizations worldwide.
    In addition, we speak out regularly against torture in our 
public statements and public diplomacy. In our reporting in the 
annual Country Reports on Human Rights Practices, we fully 
cover internationally recognized individual, civil, and 
political rights set forth in the Universal Declaration of 
Human Rights, including freedom from torture. The report on 
each individual country includes a section covering findings of 
torture or other cruel, inhuman, or degrading treatment or 
punishment. We are very proud of the fact that in the Country 
Reports we criticize those who torture, whether they are allies 
or foe, and we believe that criticism itself contributes in 
many cases to a reduction in abusive practices.
    When we find evidence of torture, we use bilateral channels 
to raise our concerns forcefully with responsible governments, 
consistently raising these important concerns at the highest of 
levels. We also work through a number of multilateral 
organizations to press our specific concerns about torture 
situations. For example, at the U.N. Commission on Human 
Rights, we support country-specific resolutions that mention 
cases of torture and also the thematic resolutions that support 
the work of the U.N. Special Rapporteur on Torture.
    Simply put, where there is evidence of torture, we demand 
an accounting. Torturers must be shown that they cannot act 
with impunity. For example, The United States took the lead in 
pushing for the formation of International Criminal Tribunals 
for the former Yugoslavia and Rwanda, in part, to bring to 
justice those responsible for torture and other crimes. Most 
recently, we have worked very closely with the Yugoslavia 
Tribunal to document a wide array of human rights abuses, war 
crimes, and crimes against humanity, including torture in 
Kosovo. We are also seeking to establish mechanisms of 
accountability for the Khmer Rouge, and the current regime in 
Iraq, as well as supporting the work of truth commissions the 
world over.
    But demanding justice is only half the battle. This 
administration also tries to help torture survivors. The 
administration does this in a variety of ways, ranging from 
technical assistance, to facilities that focus on the treatment 
of victims, to blocking the centurn of survivors to countries 
where there is a substantial risk of torture. The United States 
is the leading contributor to the U.N. Voluntary Fund on 
Torture, which has provided international humanitarian 
assistance and has funded psychosocial treatment and other 
aspects of health care in response to the needs of refugees and 
conflict victims in many regions who have suffered torture.
    Mr. Chairman, I know you have heard from other 
Administration Representatives that the U.S. report to the 
Committee on Torture, as required by the Convention on Torture, 
is near completion. I am pleased to inform you that we expect 
the report to be completed by the end of the summer. In 
addition, Assistant Secretary Koh is looking forward to an 
opportunity to brief the Committee on this report after it has 
been submitted to the U.N. Committee Against Torture.
    In closing, we extend our concern and regard to individuals 
who have experienced the cruelty of torture. We honor those at 
the World Centers for Victims of Torture who labor at direct 
care, education, and prevention. And, finally, we reaffirm our 
commitment to this cause, as well as our desire and willingness 
to work closely with Congress on these complex and troubling 
issues.
    Thank you very much.
    Mr. Smith. Mr. Gerson, thank you very much for that 
excellent statement. Let me just ask Mr. Faleomavaega if he has 
any opening comments, but I do want to commend you for your 
fine statement and for the good work of the Department on this 
issue.
    Mr. Faleomavaega. Mr. Chairman, I do want to note for the 
record the outstanding leadership that you certainly have 
demonstrated over the years about this very important issue 
that the Committee is now taking into consideration, and we 
certainly we want to offer our personal compliments and welcome 
of Members of the panel that will be testifying this afternoon.
    Because we don't have the advantage of calling the hearings 
and consultations with the Minority Members, I have the 
unfortunate experience of having to be given a fancy title of 
being the Ranking Democrat on Fisheries, and we are having a 
Subcommittee hearing right now at two o'clock, and in as much 
as I really would love to listen to the testimonies, I would 
like to say, Mr. Chairman, that I absolutely support the work 
of our Subcommittee in this effort and certainly compliment 
your leadership in seeing that this is carried through, and 
certainly with the support of the Administration, we should 
have this taken fully by the Congress. And, again, my apologies 
to the Members of the panel. I would have loved to have 
listened to the testimony, Mr. Bo Cooper especially who I call 
an American Samoan too, because he was on my island some years 
back and hope it was a positive experience for him being there 
among the natives, but certainly welcome Mr. Cooper here in our 
presence.
    Mr. Chairman, unfortunately I have to go because of this 
hearing that I have to be part of in the Subcommittee on 
Fisheries.
    Mr. Smith. Thank you, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Smith. Thank you for your good work on this. This is a 
bipartisan effort, and you have been there on every issue, 
including co-sponsorship for the Torture Victims Relief Act.
    Mr. Faleomavaega. Absolutely. Let us go to West Papua New 
Guinea next time. Thank you.
    Mr. Smith. Ms. Limon.

    STATEMENT OF LAVINIA LIMON, DIRECTOR, OFFICE OF REFUGEE 
     RESETTLEMENT, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Limon. Good afternoon, Mr. Chairman. I appreciate the 
opportunity to testify at today's hearings on U.S. policy 
toward victims of torture. As Director of the Office of Refugee 
Resettlement, ORR, I am pleased to talk about the activities we 
have funded and to speak to the President's Fiscal Year 2000 
budget request of $7.5 million for domestic services and 
rehabilitation for victims of torture.
    Shockingly, victims of torture come from around the world, 
but ORR is most aware of those who come from Kosovo, Bosnia, 
African nations and the Middle East and arrive as refugees to 
the United States. Today, you will hear from individuals who 
have been tortured, and they will speak more directly an 
eloquently than I can about their experiences. However, through 
ORR programs we have learned about and have become sensitized 
to the experience of torture victims.
    For three years, ORR has been awarding funds to assist 
torture victims who have refugee status. Beginning in 1996, we 
have gradually increased our support, and this year, we have, 
so far, awarded $1.5 million to 10 different organizations. The 
programs these funds support identify torture victims among 
refugee communities and assist the survivors in obtaining help. 
The kinds of activities funded by ORR include training of 
refugee resettlement staff, English language teachers, 
volunteers, and all community services staff so that torture 
survivors can be identified and referred to the services they 
need. Second, they orient refugees themselves to the help 
available from existing mental health services and specially 
funded torture victim centers, and they orient mental health 
professionals to effectively serve refugees and torture 
survivors across language and cultural divides.
    The services needed by torture victims are a unique 
combination of medical care, psychological help, social 
services, and spiritual healing, and I would like to describe 
just some of the programs that we support. The Center for 
Victims of Torture in Minnesota established a training program 
for school teachers in their classrooms who are either 
themselves victims of torture or whose family members have been 
tortured. Survivors International in San Francisco has 
established peer support groups and a community center which 
offers the survivors a path out of their isolation. The 
International Institute of Boston is training mental health 
organizations throughout New England to treat torture 
survivors, and in New York City, the organization, Solace, 
helps survivors of torture reunite with their families and 
obtain services, such as employment and housing.
    At ORR, we have come to know the network of non-profit 
organizations around the country whose mission it is to serve 
torture victims. They are dedicated and hard working, and they 
provide services to victims of torture without regard to their 
nationality, politics, socio-economic class, or immigration 
status even though the Office of Refugee Resettlement funds can 
only be used to assist refugees. They solicit funds from 
private sources, and a few have been funded by the United 
Nations Fund for Victims of Torture. Several years ago, the 
Minnesota legislature provided seed money that launched the 
Center for Victims of Torture, but the prevalence of torture 
has only recently become widely recognized, and support for 
services has not kept pace with the need. Many of these 
agencies have far more clients than the current funding can 
serve.
    The President's request under this new authority would 
enable us to provide a higher level of support to domestic 
centers and programs for victims of torture. We would be able 
to provide direct clinical services, including social and legal 
services, and we would be able to extend the understanding of 
how torture has affected those who survive and which services 
and treatments are most effective.
    Last week, I met with a young woman who had been tortured 
and who spoke with me about her experiences. She said, ``The 
torture experience traumatized and intimidated me. As a result, 
after I left my country, I hid from everyone. Please remember 
we need time and space to put distance between the torture and 
our next steps, but we don't need this help forever. Most 
importantly, we need each other. We need to be together. Being 
together brings support in a safe place to begin to discuss and 
understand what we have experienced by being tortured and what 
this means in the world. Then we can once again take charge of 
our lives. Then we can begin again; we can raise our voices; we 
can be proud of what we endured for our human rights.''
    After working 24 years in refugee work, I have come to 
understand that for refugees, building a new life is not just 
about establishing a home, learning a language, accessing 
health care, and getting a job. The most important 
accomplishment for refugees and torture survivors is the 
healing of the spirit. For survivors, their tasks are the same, 
but the pain is greater and the challenge is deeper. The people 
these funds are intended to serve are survivors. They will help 
themselves, but they need a helping hand and a caring heart.
    Thank you for the opportunity to appear before the 
Subcommittee today, and I would be pleased to answer any 
questions you might have.
    [The prepared statement of Ms. Limon follows:]
    Mr. Smith. Ms. Limon, thank you very much for your 
testimony and for your fine work.
    I would like to ask--Dr. Van Dusen.

  STATEMENT OF ANN VAN DUSEN, DEPUTY ASSISTANT ADMINISTRATOR, 
BUREAU OF POLICY AND PROGRAM COORDINATION, UNITED STATES AGENCY 
                 FOR INTERNATIONAL DEVELOPMENT

    Dr. Van Dusen. Thank you, Mr. Chairman. I appreciate this 
opportunity to outline the U.S. agency for International 
Development's efforts to prevent and control the worldwide 
problem of torture.
    This weekend, as you know, many people gathered in 
Washington to commemorate the second annual U.N. International 
Day in support of torture victims and survivors. We at USAID 
strongly support their cause. Many of our programs, especially 
those in the democracy and human rights area, are directed at 
preventing torture from occurring in the first place. Others 
are directed at the treatment of victims.
    Our definition of torture is an inclusive one. It includes 
a man who is beaten or maimed, a woman who is raped for reasons 
that are in part political and psychological rape as an 
instrument of war, and the individual--unfortunately, often a 
child--who is forcibly recruited to a rebel army by threats or 
beatings. All of these human beings will need help and 
understanding in dealing with the trauma that lasts long after 
the initial act of violence.
    For years, USAID has provided assistance to non-
governmental organizations and others for programs directed at 
torture. I have submitted my full statement for the record. I 
just want to highlight, in the next few minutes, some of the 
specific activities that AID is supporting around the world. 
Many of these were outlined in a recent report to Congress. I 
want to speak to you briefly about Kosovo, because it is on all 
of our minds and then to conclude with a word about prevention 
and what we can do to prevent this horrible practice from 
occurring.
    It is hard to speak about good news in this area, but if 
there is any, we might look to Latin America where the spread 
of democracy in recent years has dramatically reduced the 
incidents of torture and human rights abuse in the region. AID 
has encouraged that trend in a number of ways. Our funding of 
justice and rule of law programs in Latin America began more 
than 15 years ago. These programs have worked in a variety of 
ways to overcome the long history of police and governmental 
abuse that exists in many countries.
    USAID has also supported the work of the Inter-American 
Institute for Human Rights. The current program that we are 
supporting with that organization supports the work of about 14 
ombudsman offices. The purposes of these offices is to create a 
visible mechanism to deal with government-sponsored abuses of 
human rights, and torture is an important part of that work. 
The Institute has also created a program for integrated 
prevention of torture. Initially, the focus of that program was 
on training health professionals in the rehabilitation of 
torture victims. The current objective, interestingly, is to 
train prison officials, improve prison conditions, and 
otherwise give priority to prevention of torture.
    In Africa, USAID has a variety of programs directed at 
torture and related forms of trauma. For example, in 1998, the 
agency's human rights program in South Africa totaled $1.5 
million and placed strong emphasis on victims of violence and 
torture. In Liberia, the Displaced Children and Orphans Fund 
supported a number of programs to assist children and youth who 
have been severely affected by years of conflict in that 
country. This program has also worked in a number of African 
countries, including Angola, Rwanda, Mozambique, and Sierra 
Leone. The War Victims Fund supports clinics that in addition 
to dealing with landmine victims, also treats people who have 
been tortured, and we may talk later about a program that may 
get underway in Sierra Leone where we have found that the needs 
of torture victims is quite acute.
    In Cambodia, to address the harsh aftermath of the Khmer 
Rouge reign of terror, we have supported the Harvard School of 
Public Health Program of Refugee Trauma. That program trains 
primary health care physicians to recognize and treat mental 
illness and trauma. In that program, we are looking at 
refugees, children, landmine victims, and widowed women.
    In Bosnia, USAID has supported programs that provide trauma 
counseling and medical assistance for war victims, including 
those who have been tortured by rapes and other means. Other 
funding to local NGO's has been provided to offer counseling to 
victims of torture, rape, and other atrocities. Fortunately, 
the incidents of these crimes has greatly diminished since the 
signing of the Dayton Accords.
    Finally, let me turn to Kosovo. As USAID and many other 
organizations and nations begin the massive program of 
humanitarian relief and recovery there, we are extremely aware 
of the many Kosovars who have suffered from rape, torture, and 
other forms of brutality. We have supported the treatment of 
these victims in the refugee camps, and we will continue to 
assist them as they return to their homeland. Already, in the 
refugee camps, USAID has support psychosocial assistance in the 
form of training for health providers, teachers, parents, as 
well as the strengthening of local service providers.
    In Macedonia, we have supported programs by the 
International Catholic Migration Committee and Medicine du 
Monde that included therapeutic activities for girls and women 
suffering from rape and other forms of trauma. In Albania, 
Catholic Relief Services social workers have provided trauma 
counseling to girls and women, and in the next week, we will be 
seeking new proposals for services in Kosovo that will include 
psychosocial treatment for victims of torture and rape. 
Supplemental funds made available in Fiscal Year 1999 under the 
Kosovo Economic and Social Recovery Program will be in part 
used for this purpose.
    In short, Mr. Chairman, we share your concern about torture 
wherever it exists. In Kosovo and throughout the world, we 
intend to use every means at our disposal to prevent those 
abuses from happening and to care for its victims. Our focus is 
twofold: first, to develop the institutions, whether it is free 
press, independent judiciary, human rights watchdog groups, 
that can help prevent torture and can hold perpetrators 
accountable, and, second, in treatment, to focus on the 
community and to strengthen local institutions to deal with the 
effects of torture and trauma. Our goal is to strengthen these 
organizations so that they can continue to serve their 
communities after U.S. funds have been expended.
    Our recent report to Congress outlines the support the 
USAID has provided to victims of torture. I would just comment 
that report, which was prepared three months ago, doesn't 
mention Kosovo. As a result of the atrocities that have 
occurred in the last three months, we will probably be doubling 
what we are doing to address the victims of torture, and the 
need for flexibility when these events occur is just critical. 
So, that report, which estimated about $5 million of activity 
this year, is probably wrong by half, given what we know will 
be our programs starting up in Kosovo and the neighboring 
states.
    I can assure you that even with the increased constraints 
on discretionary funding in the 150 account, we will not stop 
with what we have already achieved. We have already sent you a 
notification of our intent to obligate funds in Kosovo dealing 
with the dire situation there, including support for the 
Kosovar victims of torture, and we will continue our efforts in 
other parts of the world where this remains a critical social 
issue.
    Thank you.
    [The prepared statement of Dr. Van Dusen appears in the 
appendix.]
    Mr. Smith. Dr. Van Dusen, thank you very much for your 
testimony, and I will like to yield to Cynthia McKinney, 
Ranking Member of the Committee, if she has any opening 
comments.
    Ms. McKinney. Thank you, Mr. Chairman. I do have an opening 
statement, which I would like to submit for the record, and I 
look forward to hearing from our panelists.
    Mr. Smith. Without objection, so ordered, and thank you.
    [The prepared statement of Ms. McKinney appears in the 
appendix.]
    Ms. McKinney. Thank you.
    Mr. Smith. Mr. Cooper.

 STATEMENT OF BO COOPER, ACTING GENERAL COUNSEL, UNITED STATES 
             IMMIGRATION AND NATURALIZATION SERVICE

    Mr. Cooper. Mr. Chairman, Representative McKinney, I am 
very grateful for the opportunity to address the Subcommittee 
today on important developments in U.S. immigration policy 
toward victims of torture.
    The United Nations Convention Against Torture is, from our 
perspective at the INS, the most important human rights 
instrument to which the U.S. has recently become a party. In 
our view, the cardinal obligation under that Convention is 
contained in article three, and under article three, the U.S. 
has agreed not to expel, return, or extradite a person to 
another state where he or she would be tortured.
    Last year, the President signed into law the Foreign 
Affairs Reform Act and Restructuring Act of 1998. Section 2242 
of that act you referred to correctly, Mr. Chairman, we think, 
as a giant step in human rights law in the United States, 
required regulations to implement the U.S. obligations under 
article three of the Convention. Within the deadline set by 
Congress, on February 19 of this year, the Department of 
Justice published an interim rule to establish procedures for 
an alien to raise a claim to protection from removal to a 
country where he or she fears torture.
    This afternoon, I would like to outline briefly for you our 
new regulations to implement article three. To our knowledge, 
no other country in the world has put into place a domestic 
determination system under article three that is anywhere near 
as comprehensive or transparent as ours. We believe that the 
various safeguards built into the system will ensure that it 
renders fair and accurate decisions.
    In developing these regulations, we were called upon to 
balance a number of important but often competing interests. 
Our primary goal was to create procedures that ensure that no 
alien is removed from the United States under circumstances 
that would violate article three. At the same time, we sought 
to ensure that the new procedures do not unduly disrupt the 
issuance and execution of removal orders. To this end, we have 
designed a system that will allow aliens subject to the various 
types of removal proceedings to seek protection under article 
three. At the same time, we have created mechanisms to quickly 
identify and resolve frivolous claims to protections so that 
the new procedures cannot be used as a delaying tactic by 
aliens who are not in fact at risk.
    Generally, the regulations provide that an immigration 
judge will consider a claim to protection under the Convention 
Against Torture, along with any other applications, during 
removal proceedings. Either party would have the ability to 
appeal decisions of the immigration judge to the Board of 
Immigration Appeals. This decision, to place article three 
claims within context of removal proceedings, is one of the key 
features of the new rule and was made in spite of concerns that 
the availability of this new form of protection could become a 
last resort for aliens, especially those with criminal 
backgrounds who are ineligible for any other form of 
protection, whether or not the person is actually at risk of 
harm. But we made this decision for a number of reasons. First, 
we wanted to create a transparent system with clear legal 
standards articulated and applied. Second, we believe that 
placing these claims in the removal proceeding, where they are 
heard with all the process attending that forum, is an 
important safeguard to ensure fair and accurate decisions. 
Third, we think that it is in fact in the interest of 
efficiency for these claims to be raised and developed before 
the immigration judge at the same time that asylum or other 
claims that may involve the same facts are raised. Finally, the 
availability of appeal to the BIA will allow the alien to seek 
review of this important decision and will also allow the INS 
to use the review mechanism to ensure that decisions about the 
applicability of article three are made consistently and 
according to the standards of proof required by article three 
itself. Further, it will allow for the development of a body of 
jurisprudence on the standards and definitions of article three 
in the same way that a body of case law on the Refugee 
Convention has developed.
    Current immigration law provides for several categories of 
cases to be handled in streamlined processes outside of the 
immigration judge hearing context. For example, aliens who 
arrive at ports of entry with fraudulent or with no documents, 
aliens who are convicted of aggravated felonies, and aliens who 
illegally re-enter the country after having left under a 
removal order, all are subject to expedited administrative 
removal processes. For these cases, the rule employs screening 
mechanisms to identify quickly potentially meritorious claims 
to protection and to resolve frivolous ones with dispatch.
    One of the most important questions in developing these 
regulations was how to deal with aliens who would be tortured 
in the country of removal but who are barred from other forms 
of protection because of criminal or other background. The 
legislation implementing article three provides that ``to the 
maximum extent consistent with the obligations of the United 
States under the Convention'' the regulations must exclude from 
their protection aliens who are barred from withholding. There 
are no exceptions to article three's prohibition on the term, 
and the statute clearly demands that the regulations be 
consistent with article three. The starting point for the 
Department of Justice, therefore, was that the regulations must 
prohibit the return of any alien to a country where he is 
likely to be tortured, even if the alien would be barred from 
withholding under the Refugee Convention. To comply with both 
aspects of the legislative directive to limit protection for 
aliens who are withholding-barred, therefore, the rule creates 
two separate provisions for protection under article three of 
the Convention Against Torture for aliens who would be tortured 
in the country of removal.
    The first provision establishes a new form of withholding 
of removal which is only available to aliens who are not barred 
from withholding. The second provision creates deferral of 
removal, which will be available to aliens who would be 
tortured in the country of removal but who are barred from 
withholding. Deferral of removal is a less permanent and less 
extensive form of protection which will be accorded to an alien 
only for so long as he is likely to be tortured in the country 
of removal. To accomplish this, the regulation provides for a 
new streamlined mechanism to terminate deferral of removal if 
the alien no longer faces likely torture in the country in 
question.
    As part of our commitment to implementing our new 
regulations, the INS has turned its attention to survivors of 
torture who come into contact with the immigration system. We 
have undertaken a number of training initiatives which we 
intend to expand to help immigration officials identify and 
respond with sensitivity to the needs of survivors and the 
effects that results of such severe trauma may have had on 
them. For example, the Asylum Division of the INS has 
maintained a close working relationship with experts in the 
field, including, for example, the Center for Survivors of 
Torture in Minneapolis, Minnesota and the Bellevue/NYU Program 
for Survivors of Torture in New York City. Professionals from 
these and other organizations have participated in the basic 
month-long training session attended by all asylum officers. 
Incorporated into this course is training on interviewing 
survivors of torture and other severe trauma. Professionals who 
work with survivors helped to develop our lesson plan on this 
topic, and over the past several years, this training has 
increased in length from two hours to an entire day. The 
training includes lectures and discussions with experts in the 
field on the physical and psychological effects of torture, 
implications for the interview, and stress or burnout that the 
interviewing officer may experience.
    Mr. Chairman, that is a summary of our efforts to carry out 
our obligations under 2242. A lot of the complex issues that 
are raised by the convention and the statutory instruction lie 
ahead of us rather than behind us, but it is an effort that we 
have been proud of, and I would be delighted to provide more 
details about the new regulations or to answer any other 
questions you may have.
    Mr. Smith. Thank you, Mr. Cooper, and thank you all for 
your testimonies. I will just ask a few opening questions, and 
then I will yield to my good friend from Georgia, Ms. McKinney.
    In talking about overseas treatment centers, we know that 
there are, counting U.S. centers, approximately 200 treatment 
centers in existence, the overwhelming majority of which are 
overseas; some of which are actually in countries where torture 
is ongoing and pervasive. What is the relationship between our 
embassies, our embassy personnel, and those treatment centers? 
Are they ever included in grants or exchanges that USAID, 
perhaps, might undertake? I was discouraged to see that in 
Fiscal Year 1999 money was not provided to those overseas 
centers as envisioned by the legislation, nor is there a 
request in the Fiscal Year 2000 budget, unless I missed 
something somewhere, and perhaps you can tell me that. But it 
seems to me that we could have found some money in the AID 
budget to give to these in many cases struggling centers that, 
by all accounts, are always underfunded. If it had not been for 
the almost overdedication of their staffs and the use of 
volunteers, they would never be able to do their jobs--and that 
is domestic and abroad. So, what is the relationship? Why is 
there not an appropriation or a line item request in the budget 
for Fiscal Year 2000? And why wasn't any money found last year 
for those overseas centers?
    Dr. Van Dusen. Mr. Chairman, maybe I could start with the 
question, and my colleague from the State Department may want 
to talk about the role of the embassies.
    There is in fact a grant to the Peru Coordinator for Human 
Rights, which is one of these centers, and this is a new grant 
this year to basically work on--to put together studies on 
human rights abuses that are related to torture. And we have 
met with the staff of the Minnesota center and certainly are 
encouraging them to make application for the Kosovo program, 
which has a very aggressive element looking at the treatment of 
torture victims.
    I think the--there isn't a line item. It is partly the way 
our budget is structured. We certainly are committed to 
continue to do the programs that we have started. We are not 
going to cut back on that. In fact, before the Kosovo 
atrocities occurred, we were looking at a program for next 
fiscal year in the $6 million range. I am sure that is an 
underestimate. But because our focus is on the community and 
making sure the services are integrated into the community and 
that we are building capacity, the decision is at the local 
level very often. Rather than having a central line item, we 
rely on the people who are designing the program to call upon 
appropriate centers. I know in many of the countries where we 
are working on torture issues, there doesn't appear to be a 
center. That shouldn't preclude their getting involved, but I 
do think that may be part of the reason, but there is nothing 
preventing our programs from working with these centers, but I 
think through sharing information about the work of these 
centers, there is a good likelihood that they will become more 
involved.
    Mr. Smith. Does AID maintain a list of centers and what is 
the relationship is with our own embassy personnel? How do they 
interface? Again, I was so encouraged when the President in his 
signing statement noted the expanded funds for treatment 
centers. I served for 19 years in the House, and I will never 
forget in my first term when we tried--and I worked with Tom 
Daschle, as I was the Republican and he was the Democrat 
sponsor--to attack the issue of post-traumatic stress in our 
Vietnam veterans, and one of the key ways was having centers 
that were proximate to the people who would be served, and it 
seems to me that closeness is very important to those who can't 
get out of the country. Many of these centers are harassed by 
the countries in question, and they are loathed by the 
offending governments. It seems to me that this should be a 
priority. And if we had--and perhaps you can provide it to us 
for the part of the record--a list of those centers and the 
kind of relationship we have with them so that relationship 
could be further forged and more money could be provided. I 
happen to think the $10 million we envisioned in the current 
bill is still an underfunding. I mean, these people are in dire 
need, as we all know--and I am preaching to the choir here--but 
we need to be making sure that the money does match our concern 
so that they get the treatment they so rightfully need.
    Dr. Van Dusen. I would be happy to provide that for the 
record. Our support often goes to private, voluntary 
organizations. It is harder to track the way they reach out 
then to centers in the area, but we will try to get that 
information for you.
    [The information referred to appears in the appendix.]
    Mr. Smith. Do you or anyone else have any knowledge of any 
instance where a treatment center has at least appealed to our 
embassy personnel for assistance when they were being harassed 
or in any way maligned by a government? Yes?
    Ms. Gerson. I am not familiar with any appeals as a result 
of harassment. I do have a couple of examples where our 
embassies have been working with centers that I believe--if my 
information is correct--are part of the IRCT group of 175 to 
200 centers. For example, we have a longstanding relationship 
in Turkey--our embassy and consulates there--with the Human 
Rights Foundation of Turkey, which runs treatment centers for 
victims of torture, and we try to work together on our mutual 
goals there. The advances are slow, but there are some.
    Also, in Nepal, our embassy there worked with AID, 
actually, and the Department of Defense to secure the donation 
of a planeload of surplus medical supplies--this was a couple 
of years ago, not part of the 1998 report--surplus medical 
supplies and other equipment to the center for victims of 
torture there, and I understand that material included two 
vehicles and some other necessary equipment.
    I would just like to advise, also, that on the issue of 
USIS exchanges, in the past two years, USIS has funded 350 
exchange visitors in the human rights field. I don't have a 
breakdown of how many of those were themselves, perhaps, 
victims of torture or worked on torture issues, but certainly, 
some of them, including two presidents of women's associations 
in Africa who visited with Mrs. Clinton earlier this year would 
be among those.
    And, finally, I mentioned in my opening remarks just a 
little about working, through our embassy in Copenhagen, with 
the Danish government. In fact, at the end of July, Ambassador 
Swett will be here with a representative of the Danish 
government for a program sponsored, I believe, by the Human 
Rights Caucus where we hope to jointly endorse a program of 
``hands-out'' and extensive interaction between the embassies 
of our two countries--Denmark and the U.S.--with some of these 
treatment centers worldwide as a way of informally or formally 
showing support--inviting them to more embassy functions, 
visiting the centers, being sure that we approach, as 
appropriate, members of the government to speak on their behalf 
without, of course, threatening their work. So, I think there 
are several areas where we can make progress.
    Mr. Smith. I do appreciate that, and certainly Mr. Lantos 
will be happy to hear that his son-in-law is coming back home 
for a visit.
    In terms of members, am I correct that there are about 
400,000 survivors living in the United States? And what is the 
estimation as to survivors worldwide, Ms. Limon?
    Ms. Limon. We do operate on the 400,000 figure. We have, 
unfortunately, not really been able to substantiate it, but in 
working with the groups who do treat victims of torture, that 
does seem to be an operable number. Overseas, I would have to 
defer to one of my colleagues.
    Ms. Gerson. I am sorry, I don't have sort of an estimate, 
but I would be happy to work with others and research that----
    Mr. Smith. If you could provide that for the record. We 
want to be as accurate as we can be. We just want to make sure 
that we have a good handle on the problem.
    Mr. Smith. Ms. McKinney?
    Ms. McKinney. Thank you, Mr. Chairman. Of course, the U.S. 
Government has been identified very closely, unfortunately, 
with governments that participate in torture, and at one time, 
we even exported the implements of torture, such as cattle 
prods to the Africaners in South Africa. I am wondering, do we 
export such implements of torture still today to governments 
that torture, and do you monitor that?
    Ms. Gerson. I can, perhaps, try to address that. Obviously, 
there has been legislation such as the Leahy amendment and 
related DOD legislation, which has assisted us in ensuring that 
instruments that could be used for human rights abuse do not 
reach the hands of military, police, or other security agents 
in countries that have a credible record of human rights abuse. 
The Bureau of Democracy, Human Rights and Labor, with the help 
of our embassies overseas and with the help of non-governmental 
organizations, vets sales of U.S. financed military and other 
equipment to countries worldwide, and----
    Ms. McKinney. I am sorry, I was distracted. Would you 
please repeat that?
    Ms. Gerson. I was just pointing out that thanks to recent 
legislation, the Leahy amendment in particular and DOD related 
legislation, we are better able to vet sales of U.S. Government 
financed military and police equipment to countries, and we are 
required to identify countries where there is credible evidence 
of human rights abuse by units who might benefit from military 
equipment or training and to, therefore, recommend against the 
sale of that equipment or the provision of training to those 
units. Now, this works----
    Ms. McKinney. Has there been an instance of the denial of 
such sales?
    Ms. Gerson. Yes. Sales have not been provided to some units 
in Colombia, to some units in Ecuador, to some units in Turkey. 
I believe that there are perhaps others, but those are three 
with which I have been most recently involved.
    Ms. McKinney. You could provide me the list and the reasons 
why those sales were denied?
    Ms. Gerson. Yes.
    Ms. McKinney. I think we have sales pending right now to 
Colombia--transfers pending to Colombia and Turkey.
    Ms. Gerson. Right. I would just like to point out that it 
is not blanket sales to the government, per se, but rather that 
equipment is destined for a unit or units where we have 
credible evidence that they have been involved in human rights 
abuse, and the government has taken no credible steps to deal 
with the abuses. So, it is not a question of just all sales but 
rather for those units.
    Ms. McKinney. Thank you.
    My second question relates to the training that is 
provided--military and police training. Of course, the School 
of the Americas has become famous or infamous for its 
curriculum, which actually taught torture and murder. What 
steps have been taken to remove such curricula from those who 
participate in our police and military training?
    Ms. Gerson. I am not an expert on the School of the 
Americas, but I believe that their training has been revised. 
The School of the Americas continues to make a significant 
contribution to the professionalization of Latin America's 
militaries in that the Latin American and Caribbean areas 
remain among the most peaceful demilitarized regions of the 
world. We obviously deplore any human rights abuses--wherever 
they may occur--including those where persons have received 
training from any government who is attempting to assist them 
in democratization and human rights work. Human rights officers 
at every embassy, using information provided by the host 
government offices and NGO's, screen all applicants who might 
be going to the School of the Americas or where we may be 
training on the ground, in the country to ensure that they have 
no negative human rights record or record of abuse before they 
are trained.
    Ms. McKinney. So, are you suggesting that the participants 
in such trainings--police and military trainings--do not have 
any background of torture or human rights abuse?
    Ms. Gerson. I am not suggesting that in the past that may 
not have been the case, but now we do use records from our 
embassies and from NGO's to try to determine if there is a 
record of abuse of a potential trainee. In that case, the unit 
is the individual, and if we have any credible evidence that 
they have been involved in an abuse, they will be denied 
training.
    Ms. McKinney. So, what about the instance of Colombia?
    Ms. Gerson. If, for example, a group of 10 individuals who 
were to either come to the School of the Americas or we were to 
wish to train with them on the ground in Colombia or at another 
location, the names of those individuals would be forwarded for 
vetting from the several sources which might have information 
about their backgrounds, and if an individual is found to have 
a credible record of abuse, the training will not be offered to 
that individual.
    Ms. McKinney. Have there been instances where individuals 
have been denied acceptance into our training because of their 
backgrounds?
    Ms. Gerson. I can find out any specific details for you, 
but what I do know is that some trainings have actually been 
delayed, because we were not able to accumulate the information 
in enough time to be sure that we were training people with 
backgrounds that were clear at that time.
    Ms. McKinney. My next question relates to torture and the 
use of excessive force here in this country, and I am wondering 
if, in the course of what you do to talk about this issue 
abroad, if there is any acknowledgement whatsoever of the fact 
that we have our own victims of torture and excessive force 
right here in this country, as amply demonstrated by the most 
recent report of Amnesty International? That is for anybody; 
that is not just for Ms. Gerson.
    Ms. Gerson. I would be happy to start out, though, because 
at the recent U.N. Human Rights Commission in Geneva, one of 
the major issues the U.S. Government had to address was the 
very recent appearance of the Amnesty Rights for all U.S. 
citizens report. We obviously admit that we also have human 
rights defects here in the United States and we intend to work 
on them. There was a fairly comprehensive report prepared to 
try to address those issues in time for the Human Rights 
Commission, and, as you probably are aware, on December 10, the 
President established an Interagency Working Group where 
Justice and INS and the Department of State and all of those 
who are supposed to be working on our own compliance with the 
various human rights conventions would work on our own issues. 
We have met every month since then, and a great deal of our 
effort has gone into looking at our own compliance, and, 
certainly, when we address folks worldwide about their 
problems, we often try to say ``We are struggling also with a 
similar problem. Let us talk about how we can both work on it 
in our own situations.''
    Ms. McKinney. I would like to see that report.
    Ms. McKinney. What it does is gives an assessment of where 
the United States is in the compliance with all of the 
conventions?
    Ms. Gerson. No, this particular report tried to aim--it was 
an informal means for us going to the Human Rights Commission--
tried to aim at the various chapters, the eight or nine 
chapters, of the Amnesty report so that we would have some idea 
of where we stood as a government on each of those issues and 
what areas we were working in so that we could exchange 
information with representatives of other governments.
    Ms. McKinney. I would certainly like to see a copy of that 
report.
    Mr. Chairman, if I may, I have one more question.
    OK, finally, I understand that Israel is trying to change 
the definition of ``torture'' so that its practices, as it 
relates to Palestinians are not considered to be torture. Could 
you tell what the definition of ``torture'' is that you work 
with?
    Ms. Gerson. Obviously, there are many different 
interpretations of what might constitute torture, but sort of 
as a start, we often refer to exactly what it says in the 
Convention, which is--sorry, my page if flipped over--for the 
purposes of the Convention, the term ``torture'' means ``any 
act by which severe pain or suffering, whether physical or 
mental, is intentionally inflicted on a person for such 
purposes as obtaining from him or a third person information or 
a confession or punishing him for an act he or a third person 
has committed or is suspected of committing or intimidating or 
coercing him or a third person or for any reason based on 
discrimination of any kind when such pain or suffering is 
inflicted by or at the instigation of or with the consent or 
acquiescence of a public official or other person acting in an 
official capacity.'' There is a little bit more after that, but 
it is fairly comprehensive, and it certainly would include many 
instances of abuse.
    Ms. McKinney. What about the denial of available medicine? 
Would that be considered torture?
    Ms. Gerson. I think what happens in a case of, for example, 
denial of medicine, some rapes, female genital mutilation, many 
things that are not clearly done in a detainee or prisoner 
situation, the standards are clear in the legislation, but we 
would have to take each instance on a case-by-case basis and 
apply that to the definition. Sometimes our common sense notion 
of what would constitute torture is not necessarily legally 
defensible with the definition. I think, as you know, there are 
other opinions of what constitutes torture. I think the 
important thing here is to whether or not one of these items 
would be encompassed by this definition of torture legally. 
They are human rights abuses, and for us, regardless of whether 
it reaches someone's standard of torture, it has to be dealt 
with as it is a very serious abuse of human rights, and we 
would consider that an issue of the utmost importance 
regardless of how someone would define it. In other words, we 
believe it would have to be prevented, punished, and that the 
victim of it would need to be assisted.
    Ms. McKinney. Did I understand you to say that the denial 
of available medicine could be considered a human rights abuse?
    Ms. Gerson. This would depend on each situation, and I 
think we would have to look at this on a case-by-case basis.
    Mr. Cooper. Excuse me, I just wanted to add a point from 
the Immigration perspective. We have set up the regulations 
here where obviously one of the questions that an adjudicator 
is going to precisely have to decide is what kinds of acts 
constitute torture to which a person ought not be returned. We 
have set the regulations up in a way that simply derives from 
the very definition that my colleague has read to you from the 
Convention, along with anything that the U.S. said about that 
definition at the time it became a party in the form of 
reservations or declarations or understandings. One of the key 
reasons why we decided that these claims ought to be heard in 
the context of an immigration judge proceeding with the 
possibility of an appeal to at least the appellate 
administrative tribunal is precisely because it seemed to us 
that an effort to answer questions like that in advance when 
setting up the rules to implement the Convention might not 
offer the sort of flexibility that is necessary in order to 
carry out your obligations appropriately, and that questions 
just like the ones that you posed are best answered in the 
context of an adjudication where the person who is making the 
allegation can come with fully developed arguments and 
evidence, and there can be a body of law that develops on 
questions just like that.
    Ms. McKinney. It is estimated that between 5,000 and 6,000 
children per month die in Iraq as a result of U.S. sanctions, 
over a million people dead, and my common sense notion would 
suggest that perhaps not only is that a human rights abuse, but 
it is torture. The United Nations Commissioner on Human Rights 
has come very close to saying the same thing. What is the 
recourse when U.S. policy becomes an instrument of human rights 
abuse and torture? What do you do? Do you go along with it?
    Ms. Gerson. I am sorry, I don't have an answer to that 
question. I will have to get back with you on that.
    Ms. McKinney. I appreciate your response.
    Ms. McKinney. Thank you, Mr. Chairman.
    Mr. Smith. Ms. McKinney, thank you very much.
    Let me ask, Mr. Cooper, you had indicated that the training 
had gone from two hours to a day----
    Mr. Cooper. That is right.
    Mr. Smith [continuing].--And certainly ought to be 
applauded for that. I would like--and perhaps you could provide 
this for the record--perhaps an Executive summary of exactly 
what that training looks like so we can have a feel of what is 
being conveyed to those individuals. But I understand that some 
Immigration judges, for example, dismiss testimony of health 
professionals who have provided treatment to torture victim 
applicants extended over periods of time. My question to 
whoever would like to take it and to you, in terms of the 
training issue, is do the Immigration judges get trained? I 
mean, we can't assume that they get it by osmosis. Are they 
given at least something equivalent to that which is given to 
the other people so they have a sensitivity toward torture? And 
is it your finding that these judges tend to dismiss this 
health care professional testimony? We have heard that from 
some of the treatment center workers who are very concerned 
about that. It is just dismissed, put off to the side, and not 
included in their final decision?
    Mr. Cooper. First, we would be delighted to provide a 
summary of the training that we provide to the INS asylum 
officers.
    Of course, that is a different body of adjudicators from 
the ones the Immigration judges that are part of the Executive 
Office for Immigration Review, and I am sorry, I don't today 
know precisely what sort of training it is that they provide, 
although I would be glad to pass the request along and see what 
sort of information they offer.
    Mr. Smith. If you could. If there is a deficiency there, 
hopefully that hole can be plugged.
    Mr. Cooper. But with respect to the key question I think, 
to my knowledge, there is not a pattern of disregard for that 
category of evidence. I don't think it would be appropriate for 
such evidence categorically to be disregarded. If it were, I 
think that is something that would be worth looking into, if 
there was some more particular information about that sort of 
thing.
    Mr. Smith. We will provide it. It really acts as a conduit 
between what we have been hearing and getting in touch with 
those who have been saying that.
    Do you give the same training to overseas refugee officers 
as to asylum officers, and do you also train--and this might go 
to maybe AID or to Mrs. Gerson--the Ambassadors and the DCMs 
about--and I say this with all due respect--some of the 
missions that I have been to over the years when I have gone on 
human rights efforts, including China, I have been met with 
blank stares and outright denials by the highest ranking 
people--that is to say the Ambassadors--when I bring up the 
issue of torture in their respective countries. I found it 
appalling that what is so readily available even in the public 
domain in the newspapers seem to have missed their notice. So, 
it seems to me that kind of training might also be applicable 
certainly to Members of Congress and to Ambassadors who are out 
there as our frontline person in a given country.
    Mr. Cooper. Well, I can begin from the INS perspective. The 
training that we provide to our refugee officers overseas is 
not equivalent to the training that we provide to our asylum 
officers here in the U.S., and I should also make clear that 
the structure of that body of adjudicators differs a bit from 
the structure of the body of adjudicators here in the United 
States. An asylum officer in the U.S. does nothing more than 
decide every day whether or not a person is a refugee, and that 
is the only responsibility of that body of officers. Refugee 
officers overseas may have additional duties to refugee status 
determinations.
    But there have been a number of steps taken by the INS in 
recent years to try to equate the body of training available to 
those two different corps to a much greater extent. One is to 
offer a much expanded version of specific refugee training to 
our officers who are going overseas to become refugee officers 
in that context. The other is, there has been a much, much 
greater incidence and investment of resources to have INS 
asylum officers serve much more often amid the body of officers 
who are going overseas to adjudicate refugee claims there. So, 
there is a much greater number of people who actually are from 
the INS asylum corps domestically doing those adjudications 
overseas.
    Although I should also make clear that obviously the 
principles of the Convention Against Torture are key for a 
refugee officer to understand, especially as they relate, for 
example, to dealing with someone who is suffering from the 
effects of torture, but it is important to make clear that the 
contours of the Convention Against Torture obligation differ 
from the asylum program that we have in the U.S. or a program 
where we would admit someone into the U.S. as a refugee. The 
Convention Against Torture just forbids someone from being 
returned to a place where he or she would be tortured, and 
obviously it would be contrary to U.S. policy for that to take 
place in an overseas context, but the people that we are 
admitting as refugees need to meet the Refugee Convention 
definition, which differs in certain respects from the article 
three obligation under the Torture Convention.
    Mr. Smith. Let me ask, perhaps, Mrs. Gerson, Ms. Van Dusen, 
or anyone else, shouldn't an equivalent training be given?
    Ms. Gerson. Well, I believe that your legislation actually 
requested and required that some sort of training for consular 
officers who, as you know, are the frontline of interaction 
with people who might be seeking a visa as a way of escaping 
some sort of a torture or abusive situation. I know that the 
Foreign Service Institute has taken some steps, including 
meeting with staff of the Minnesota Center for Victims of 
Torture, to look at a training segment that could be used at 
the Foreign Service Institute. I will have to get back to you 
with a detailed report of progress. We have been thinking about 
it as something that folks would take at the very beginning of 
their service, but I think there is suggestion that maybe a 
refresher for Ambassadors and deputies is well taken.
    Mr. Smith. I appreciate that.
    Dr. Van Dusen. If I could just add, Mr. Chairman, we also 
do training for our democracy officers at AID and certainly 
have done training recently in rule of law issues where human 
rights comes up. The other thing that I would mention is that 
AID works very closely with the embassy and the human rights 
reporting, which does certainly deal with instances of torture.
    Mr. Smith. Thank you very much. Mr. Tancredo? Ms. McKinney, 
do you have any follow-ups? Thank you.
    I would like to yield to our Chief Counsel, Mr. Rees.
    Mr. Rees. Thank you. Ms. Limon, you pointed out that ORR 
funds can only be used to assist refugees. Of course the 
Torture Victims Relief Act authorization for HHS is broader 
than that. It does not limit itself to ORR, although I think 
that Members of the Subcommittee all think ORR is a great place 
to administer it, and it is not limited to refugees. It could 
be, for instance, that torture victims would be immigrants 
whose status hasn't yet been adjudicated, asylum seekers; they 
could be people who came in because of their relationship with 
a U.S. citizen, their family relationship, and yet they could 
still need that help. Does the President's Fiscal Year 2000 
budget request anticipate that broader scope so that if you get 
it, whatever assistance you provide to torture victim treatment 
centers will not be limited to refugees?
    Ms. Limon. Yes, absolutely. We anticipate that; we look 
forward to it, actually, because we do consider that a 
limitation that has been difficult out in the real world for 
the organizations that we fund. We hope that by funding them 
through ORR money, that they are able to release other money or 
leverage other money to treat non-refugees within their own 
centers. The money that we have requested in 2000, we expect to 
be used not for refugees but for other folks, and we expect to 
continue our refugee funding so that they receive--they are 
competitively, appropriately awarded a grant, receiving both 
refugee money from ORR and other moneys from this new act.
    Mr. Rees. Good. Ms. Gerson, following up on the Chairman's 
question about the training and the progress on the training, I 
think the act does anticipate that it not just something that 
you would get one time in your life, not just Ambassadors and 
DCMs. If there are people out there who are dealing either as 
consular officers or in some kind of refugee pre-screening 
before INS gets to visit the people, I think the act certainly 
anticipates that training should be given to them. I guess I 
have two questions, which if you don't know the answer, you 
could submit for the record. One is the extent to which you 
will involve non-governmental organizations that have some 
expertise in the training, and, second have you consulted with 
the INS Asylum Corps, which I think in conjunction with the 
General Counsel's Office has a program of training in these 
areas that has become something of a model?
    Ms. Gerson. There is an individual with whom we have been 
working at the Foreign Service Institute. He had mentioned that 
he had consulted with the Center for Victims of Torture in 
Minneapolis, but he did not indicate to us what other 
preparations have been done to date. I think I have learned 
something here, and that is that I can put him in touch with 
the INS Asylum Corps if not already--if he has not already done 
that, because obviously a one day segment similar to that 
described here would be very much appropriate to adapt, 
perhaps, to our circumstances. I also wasn't suggesting that we 
would only train Ambassadors. I was thinking that a refresher 
later after people have that sort of in their basic training 
would be very useful. We also have a conflict resolution 
training course, which people can sign up for who are working 
in areas where conflict resolution and outbreaks of post-
conflict situations exist, and we were looking at incorporating 
that in that particular course, as well.
    Mr. Rees. Has the training been not actually started yet? 
You are still planning it?
    Ms. Gerson. It has not actually started yet.
    Mr. Rees. OK. Thank you, Mr. Chairman.
    Mr. Smith. Ms. McKinney has a follow-up question?
    Ms. McKinney. Thank you, Mr. Chairman. Yes, I do have one 
final question, and I suppose it would be for Mr. Cooper. What 
about victims of spousal abuse? Are they considered to be 
torture victims, and why not?
    [Laughter.]
    Mr. Cooper. That is a question that, as far as I know, has 
not yet been posed to the adjudication system under the 
Convention Against Torture. I would imagine that one of the key 
considerations in evaluating a claim of spousal abuse under the 
Convention Against Torture would be that the Torture Convention 
has a much more rigid requirement than the Refugee Convention 
of state action on the part of the person who is causing the 
harm. The Refugee Convention recognizes as a persecutor either 
the state or an agent the state is unwilling or unable to 
control, but the Torture Convention has a much more rigid 
requirement of state action. A related question has to do with 
whether a victim of spousal abuse is a refugee under the 
Refugee Convention, and, as you may know, there has just been a 
decision by the Board of Immigration Appeals that sort of 
claim, at least in the context presented to the board, did not 
make out a claim under the Refugee Convention.
    Ms. McKinney. So, what you just said is that a woman who is 
victimized by an abusive spouse is not considered to be a 
refugee? Is that what you said?
    Mr. Cooper. That is probably broader than is correct under 
the law, but in most cases, yes, that would be correct under 
this recent Board of Immigration Appeals decision.
    Ms. McKinney. And how recent was that decision?
    Mr. Cooper. I think it was about three weeks ago.
    Ms. McKinney. OK. Thank you.
    Mr. Smith. Thank you. I just want to, again, thank your 
panel. Ms. Limon, you spent some time in Fort Dix recently, 
didn't you?
    Ms. Limon. I sure did.
    Mr. Smith. I hope you enjoyed the hospitality there, and I 
want to thank you for the good work you did, and when we did 
meet with you up there, I thank you for the hospitality. My 
daughter--just a parenthetical--has been doing an internship at 
Amnesty International, and she made a trip up there, as well.
    Ms. Limon. Did she?
    Mr. Smith. But thank you for that.
    And I just want to thank our panelists. We look forward to 
working with you in your respective positions. The Subcommittee 
is very interested in a good, close partnership, and keep up 
the good work, and thank you for being here today.
    I would like to invite our second panel to the witness 
table, beginning with Dr. Judy Okawa, the director of Survivors 
of Torture and Severe Trauma at the Center for Multi-Cultural 
Human Services. Dr. Okawa is a licensed clinical psychologist. 
Her expertise is in the evaluation and treatment of severe 
trauma and torture. Dr. Okawa has worked extensively with adult 
and adolescent survivors of torture, combat-related war trauma, 
rape, sexual abuse, and the multiple forms of trauma 
experienced by refugees, both pre-flight and after 
resettlement.
    Second, we will have Mr. Ali Hoxhaj who is a Kosovar 
refugee and torture survivor who is now living in the United 
States. Mr. Hoxhaj was taken, along with his brother and 15 
other ethnic Albanian Kosovars, by Serb police. They were 
tortured, and they were beaten. Mr. Hoxhaj was shot at several 
times but was not killed. Mr. Hoxhaj managed to survive by 
pretending to be dead.
    Our next panelist will be Ladi Olorunyomi, a torture 
survivor who was detained three different times by the military 
policy in Nigeria. She was held in solitary confinement at a 
military base where she was subjected to severe psychological 
torture. Last year, Ms. Olorunyomi escaped another threatened 
arrest and left Nigeria with her two children. Her family 
reunited in February 1998, and they are currently living in the 
United States.
    Mr. M. is a pseudonym of a torture survivor born in Iran. 
During mandatory military service, Mr. M. was arrested because 
of his support of Iran Azad, a party that opposed Khomeini. He 
was then imprisoned and tortured from August 1992 until 
February 1993. Mr. M. was placed under a death sentence but was 
released due to connections and bribes from his family. He then 
came to the U.S. in 1988 under a student visa. He was advised 
not to return to Iran and was granted political asylum in the 
United States.
    And, finally, Mr. Douglas Johnson is Executive Director of 
the Center for Victims of Torture. The center, founded in 1985, 
is the first treatment center for rehab of torture survivors in 
the United States. Mr. Johnson is also a member of the Advisory 
Panel on the Prevention of Torture, which was recently formed 
by the Organization for Security and Cooperation in Europe to 
build an OSCE strategy to end torture in the region. Mr. 
Johnson received his Masters in public and private management 
from Yale School of Organization and Management.
    I would like to ask Dr. Okawa if she would begin.

STATEMENT OF Dr. JUDY OKAWA, DIRECTOR, PROGRAM FOR SURVIVORS OF 
  TORTURE AND SEVERE TRAUMA, CENTER FOR MULTI-CULTURAL HUMAN 
                           SERVICES;

    Dr. Okawa. Good afternoon. Thank you for the opportunity to 
speak to you today on the crime of torture and the devastating 
impact on the human mind, body, and spirit. I want to start by 
thanking you for your clear commitment to survivors of torture; 
they certainly deserve it. I am happy to see that you are 
caring.
    In the interest of time, I will abbreviate my statement and 
refer you to the testimony in the record. Torture is designed 
to break down the human spirit and the personality and to 
terrorize communities. It has effects that are not time 
limited. Torture survivors report feeling changed for life. 
They are profoundly affected physically, emotionally, 
cognitively, and spiritually by the horrendous experiences they 
undergo, such as having their head dipped in a barrel of fluids 
that contain excrement to the point of near drowning or being 
forced to witness a child be tortured or being forced to drink 
a gallon of gasoline and live in fear that you will then be 
burned afterwards.
    So, the sequelae of torture are profound, and they can be 
disabling if the survivor does not have appropriate treatment. 
Survivors suffer from physical ailments, which you would 
expect, such as chronic back and join pain, sexually 
transmitted diseases, incapacitating headaches every hour of 
every day, and foot pain, difficulty walking from falanga, 
which is the form of torture where a person is inverted, their 
feet are softened, perhaps in water, and the soles of their 
feet are beaten, sometimes for hours on end. Nightmares and 
flashbacks bring the torture a reality in the present moment. 
Sleep disturbances are common. Survivors sometimes report 
sleeping less than an hour a night for years, and always there 
are the memories, which are intruding at times when they least 
expect them.
    A torture survivor's ability to trust is shattered, and 
their sense of a safe world is obliterated. Many survivors are 
hypervigilant; they are constantly on alert for danger. For 
example, one survivor put his fist through my wall when he 
heard my colleague in the next room slam a file cabinet drawer 
shut. He was alert constantly for harm. This hypervigilance 
cannot be changed by an act of will. Torture can destroy a 
person's ability to feel joy. Anger comes quickly, explosive 
anger, with slight provocations, and people around the 
survivors cannot understand why can they not control these 
emotions?
    Profound guilt and shame plague a survivor. Many times 
survivors are forced to do things that violate their values, 
such as rape or stab or torture other people or give false 
information when they know that will result in this other 
person suffering terribly under torture. I sometimes wonder if 
this shame isn't one of the most difficult things for survivors 
to cope with. It is very difficult to work with in therapy. I 
remember a survivor telling me that she absolutely was 
worthless. She was unforgivable; God could not forgive her; she 
could not forgive herself, and no one would ever be able to 
forgive her. She said, ``I am worse than filth.'' Torture is a 
deeply isolating experience. Survivors often report going 
through long periods of time where they wish they could be 
dead. Many make attempts.
    Survivors of torture also suffer from cognitive 
impairments, such as disturbances in memory, difficulty 
concentrating, even difficulty staying present in the moment. A 
survivor might be here listening to me speak and have the 
sensation of going somewhere else; maybe even have the sense of 
leaving their body or of going somewhere else in their mind. 
One adolescent, 18-year old, who is a survivor of gang rape by 
15 soldiers told me that she thought that the reason that the 
women killed themselves afterwards compared to the rape victims 
who did not kill themselves afterwards was that the ones who 
killed themselves were not able to get out of their bodies like 
she was. She was able to leave her body and that was how she 
felt she was able to survive. This is called dissociation. You 
can imagine that if you are a survivor who has memory problems, 
cannot remember dates, has separated from the traumatic 
experience, you may well be disbelieved at a time like your 
immigration interview, because you cannot give a coherent 
history of what has happened to you.
    Healing is a long, painful process; it can take years; it 
can take decades. As Sister Dianna Ortiz, an American who was 
tortured in Guatemala said, ``For survivors, getting out of bed 
in the morning is an act of survival.'' The smallest thing can 
trigger a trauma reaction. Someone in my office was triggered 
by my using a clipboard in the interview. I no longer do that. 
Other survivors report feeling a trauma flashback by having to 
sit in the waiting room waiting for their appointment, because, 
often, survivors are made to sit and wait for their turn to be 
tortured while they listen to others being interrogated and 
screaming. A survivor of rape explained that just a whiff of 
cigarette smoke took her back to being surrounded by torturers 
who blew their cigarette smoke in her face and then raped her.
    The refugee experience itself is described by some 
survivors as another experience of torture. The refugee 
survivor loses their identify. No longer is this young woman an 
attorney; she is a refugee. She feels demoted to a lower stage 
in society, loss of career, loss of ability to communicate. Can 
you imagine trying to deal with your life using the language of 
Somali or Serbo-Croatian or Bosnian? People lose their ability 
to provide for their family members.
    Survivors of torture have many gifts that they bring to us, 
and certainly the survivors who were here last week for the 
International Day in support of survivors of torture are 
examples of people who bring great strength. There are 
survivors in the audience today. Dr. Dodo Mahari is the general 
secretary of the Sindh Tarique Passand political party. A 
number of survivors that are mentioned in my testimony have 
great gifts. They are attorneys; they are priests; they are 
writers; they are people that are worth our attention and 
caring for.
    They have extraordinary accomplishments yet the fact that 
they have survived doesn't mean that their life is not a 
perpetual struggle. As one survivor told me, ``It is as if I 
were a delicate piece of glass that someone put in a paper bag 
and then bashed over the rocks over and over. The bag looks 
intact from the surface, but inside I feel like thousands of 
pieces of glass, all fragmented and only held together by this 
thin paper skin that keeps the pieces apparently in one 
place.''
    There are over 400,000 survivors of torture in the United 
States, and most of these survivors are unrecognized; they are 
invisible. Many desperately need our help to move from being 
surviving to thriving. Because of the extreme traumatic 
experiences they have endured, survivors of torture have multi-
faceted needs that need to be addressed by treatment centers 
providing comprehensive services. These needs include medical 
care to address their physiological sequelae, including 
depression, anxiety, sleep disturbances. Survivors desperately 
need medical insurance; they need Medicaid--this is not 
possible particularly in those who do not have asylum status--
psychotherapy in their own language by a clinician who is 
familiar with their culture, social services that address basic 
needs like food, shelter, medical care, jobs, language, and 
need for referrals, legal referrals, trained professionals to 
work with them.
    There is a paucity of treatment centers in this country to 
meet these complex and interrelated needs of survivors, and 
there are absolutely minimal sources of funding for these 
centers. In October 1998, 15 U.S. treatment centers formed a 
coalition of U.S. torture treatment centers. Although the 
Torture Victims Relief Act was passed in 1998, the funds 
necessary to provide this relief were not appropriated, as you 
are well aware. Funding for the TVRA must be appropriated to 
help the U.S. torture treatment programs provide urgently 
needed services to the nearly half million survivors in this 
country.
    You and I are fortunate. Most of us have never had to 
experience torture. Once your life has been touched by that of 
a survivor, you begin to see the world differently. It is no 
longer possible to stay silent in the face of these crimes 
against people. So, I ask you to stand in strong support of the 
Torture Victims Relief Act to provide funding to torture 
treatment centers, both in the United States and abroad. I ask 
you to uphold article three of the Convention Against Torture 
to protect survivors of torture from being deported to the 
countries where they were so severely abused. I ask you to 
support the Leahy amendment and the Freedom of Information Act, 
and, above all, I ask you to join in the effort to protect the 
rights of human beings across the world.
    Thank you very much, and thank you for your commitment.
    [The prepared statement of Dr. Okawa appears in the 
appendix.]
    Mr. Smith. Thank you very much, Dr. Okawa. Thank you very 
much. I would like to ask our next witness if he would proceed.

    STATEMENT OF ALI HOXHAJ, TORTURE SURVIVOR, KOSOVO; LADI 
             OLORUNYOMI, TORTURE SURVIVOR, NIGERIA

    Mr. Hoxhaj. My name is Ali Hoxhaj. You will understand that 
this is a pen name I am using for security reasons. It is a 
pleasure for me to appear before you and tell you about the 
misfortune that befell me and my fellow countrymen.
    From 1974 until 1993, I worked as a mason in construction 
in Croatia. After 1993, I performed the same job in Kosovo. 
When the war started in March 1998 and until September of that 
year, I lived in my house with my family--my wife, eight 
children, three brothers, their families, and my mother. On 
September 25, the life of my family changed forever.
    About three months before the Serbs attacked our village, 
some 2,000 to 3,000 people displaced from different parts of 
Kosovo had sought refuge in our village since it was high in 
the mountains and did not have paved roads. In the morning of 
September 25, the Serbs began their offensive against our 
village. We were forced to flee our homes and the village. We 
went about a kilometer away but could not travel further, 
because we were surrounded on all sides. That night, we slept 
in the forest. The next day, September 26, the Serbs arrived in 
our village and started to burn it. Then they came in the 
forest where we were. They told the first people they saw to 
surrender or else they would start firing into the crowds. 
There was no chance that we could escape, and we were all 
unarmed. The Serbs started to separate the males of 15 years or 
older from the children and women. Then they forced women and 
children to one side. They searched us for knives or weapons 
and lined us up. We were then joined with another group of men. 
A Serb separated, one by one, a group of between 20 to 25 men 
and gathered us in one place. From that group, he released 
about 10. Altogether, there were 14 of us left. Among them were 
my brother, my sister's sons, my sister's brother-in-law. My 
sister's two sons, age 16 and 17, were released. They beat me 
up the most, because I had to translate for my sister's sons 
since they did not speak Serbian. They placed a wool hat with a 
Kosovo Liberation Army patch on my brother's head, and one 
policeman took a picture with him. They asked us whether we 
were members of the KLA. Groups of policemen would come while 
the village was burning. They came to us after setting fire to 
our homes.
    After a while, a landrover full of policemen came. We were 
all gathered together and were sitting down. The police ordered 
us to get up. Three policemen separated my sister's brother-in-
law from the rest of us and started beating him. Then they 
ordered us to raise our hands above our heads and to follow the 
landrover as it drove away. As we walked, they kept beating us. 
They sent us to my neighborhood in the village. We saw our 
houses burning. Then they marched us to the third neighborhood 
of our village. There, they stopped us and ordered us to stand 
on our toes, knees, and head with our hands tied behind our 
heads. We were forced to stay in this position for about an 
hour and a half to two hours. Then they sent us to the yard of 
a villager. Here they ordered us to lay on our stomach near a 
fence. They started to beat us, and as other groups of 
policemen came, they kicked us and hit us with their rifles, 
garden tools, and in some cases they even used knives to stab 
some of us. This continued from about eight or nine in the 
morning until that evening. Before they started executing us, I 
raised my hand to see whether I could ask a question. I asked 
whether there was a police inspector who would question us. A 
policeman approached me and said he was my inspector. He hit me 
on the forehead with the handle of a pitchfork. I started to 
bleed and fell to the ground. As it got dark, the policemen 
started making loud noises. They called one policeman. As far 
as I could tell, that one policeman carried out all the 
executions. Immediately after he came, he did not say anything, 
just started shooting. He first shot at a person next to me. He 
then went to the other end and started shooting continuously 
from one end to the other. He then did the same from the other 
end. During the first round, I was hit twice--on my left 
shoulder and left arm. During the second round, I was hit on my 
left hip and right knee. After the two rounds, he kicked one of 
the victims in the ribs and said he was alive, and then he shot 
him again. He then kicked me, but I didn't move. He assumed I 
was dead. I just waited for him to shoot me again.
    Thirteen people were executed. I was the only survivor. The 
executed were from 25 to 55 years old. Among the dead were my 
brother, my sister's brother-in-law, one person from my 
village, while the others were from neighboring villages. After 
the executions, the police burned a civilian car and then left 
immediately. When they arrived in the next village, you could 
hear them firing their guns. Then I realized they had left and 
forced myself to get up. I could see the houses burning. I 
checked to see if anyone was alive. No one moved, and you could 
only see the bodies steaming. Then I started walking toward my 
house. It took me about 30 minutes to get there. My new house 
had been burned, while the old one was still OK. Inside, I 
found my family, which had just returned from hiding. I stayed 
in my house for 11 days. On the 12th day, I was picked up by 
UNPROF. They sent me to the Skopje with my pregnant wife, eight 
children, my mother, and my younger brother. During those 11 
days that I stayed home, doctors from UNPROF visited me every 
other day and took care of me. In Skopje, I stayed 1 month in 
the hospital and then I came to the United States.
    Thank you very much.
    [The prepared statement of Mr. Hoxhaj appears in the 
appendix.]
    Mr. Smith. Mr. Hoxhaj, thank you very much for that moving 
account and to be willing, as are other witnesses, as well, to 
retell a harrowing experience. It is amazing to me how you and 
our other witnesses who are survivors have been able to 
overcome such adversity, and in your case to evade additional 
bullets by the assassins. So, I just want to say we appreciate 
it. It also gives us additional motivation on this Subcommittee 
and hopefully those who will read the record to do more on 
behalf of torture victims. So, thank you.
    I would like to ask Ms. Olorunyomi if she would present her 
testimony?

                  STATEMENT OF LADI OLORUNYOMI

    Ms. Olorunyomi. Good afternoon. My name is Ladi Olorunyomi, 
and I am a Nigerian journalist, a wife, and a mother. Unlike 
Mr. Hoxhaj's testimony, I am going to talk about Nigeria in 
peacetime not in wartime, and my experience dates back to 1993 
after the annulment of annihilation.
    Like I said earlier, I am a journalist, and my husband also 
happens to be a journalist. In all, I have been detained three 
times. The third detention led me to seek refuge in the United 
States. On all three locations, I was never detained for any 
political activity or even for my own license as a journalist. 
I was always held hostage; on the first two occasions for my 
husband and the third occasion for a colleague of his.
    The first time I was detained was June 1993--I think it was 
June 24 or June 23; I am not quite sure of the date now--and it 
was by the special branch of the policy, they came for my 
husband. They didn't find him. They found me at home with my 
kids. My little baby who was three months old at the time and 
who had pneumonia, they took myself and the baby away, and they 
only released us after 24 hours, because, like I said, the baby 
had pneumonia and was really in need of medical attention. They 
released us because of him.
    The second detention was in 1994--sorry, 1997 for--I can't 
remember how many days--but it was from March--the ordeal 
started on March 20, and, again, it was because of my husband 
who was already here in the United States on exile then. He 
happened to have spoken out against the government from here, 
and they saw it on television and as punishment, since they 
can't find him, they can get his wife, so they came for his 
wife. And it was really a very traumatic experience. I am 
talking now of the arrest, because you have a house full of 
soldiers--I mean, three soldiers coming to arrest an unarmed 
woman in the presence of her two kids who just did not 
understand what was going on, because my bigger kid was seven, 
the little one was four, and they don't know the first thing 
about what was going on. I was kept in solitary confinement for 
the first 20 days of the detention and allowed to mix with 
other detainees for the remaining time--I can't quite recall 
the number of days now.
    I don't want to go into too many details, not to waste our 
time, but I would like to touch on the culture, the political 
culture, that led to that kind of treatment. It was just the 
dictatorship by the military, because as of 1993 when my first 
detention happened, we were in the 27th year of rule by 
military, and military governments by their direction are not 
accountable to anybody. There was a complete suppression of all 
civil and civic activities. They were not accountable to even 
the judiciary, which was still functioning partially. So, there 
was a culture of silence and apathy.
    Of course, I was not the first detainee. I was not even the 
first hostage. There had been many before me, and there were 
many after me. It was always the case that if they cannot find 
who they are looking for, they will take the next of kin who 
happens to be over 10. I say over 10 because when I go to 
detention, I met a detainee who is 12. He was held because they 
couldn't get his father, and the oldest detainee there was 79 
years old. He was held because they couldn't get his son, and 
it usually was that kind of thing.
    I was lucky I was never subjected to physical torture, but 
I was impressed by the lady earlier who asked the question 
about denial of medical attention earlier on, because I don't 
know if that counts as physical torture, because I was denied 
medical attention. Of course, I fell ill. I was in solitary 
confinement in a little cell that was infested by rodents and 
often you wake up at night, if you get to sleep at all, to find 
some animal gnawing at your feet or any other part of your 
body, and you can't stop, you can't protest, you can't even ask 
for anything, and initially I was fed like once a day, and then 
later it improved; I was fed twice a day, and they allowed my 
family to bring food down for me, which I consumed.
    But, you know, for me, that was just the limit of my 
experience, but I was witness to all kinds of the torture, 
which--I mean, they were enjoying telling me that ``Well, if 
your husband does not keep quiet where he is, this is what you 
are going to get next.'' I witnesses people going through the 
electric shocks, being hung by their feet from trees, being 
tied to trees all day, and of course there were the beatings. 
There was a woman like me held because of her husband who was 
beaten. They made it a case so that people don't hear her 
shout. They beat her only at night, and they beat her night 
after night for like two weeks until her husband showed up, and 
they let her go. The case of the 79-year old, for instance, was 
really pathetic because he lost his--he suffered, what is it 
called, cardiac arrest and lost the use of one part of his body 
before they finally let him go, and there were so many others 
which I don't think--Now, the effects of this in many cases 
were outright death.
    Being in detention, I was able to see firsthand how they 
really maltreat so many people. Like, for instance, we got to 
read some of the things they do. We know, for instance, that 
when soldiers come in with some clubs, just plain, ordinary 
clubs, and they tie up some jelly cans full of water, we knew 
somebody has been tortured today, and that person is about to 
get up and get dumped somewhere, and usually they would do 
these things at night so you don't see. I can't recount how 
many bodies I saw being taken out of that place, and in most 
cases, I couldn't identify those people, because they were too 
burned in the underground detention center. I saw them dug into 
the ground somewhere. For instance, we lost a journalist who 
until this moment we don't know where he was buried. They 
actually only confessed to having picked him up only last year 
after he has been missing since 1996, and there were so many 
people there who nobody knows where they were picked from, and 
nobody knows what eventually became of them.
    I met several people there who had really lost their mind. 
When I say they lost their mind, I mean they had gone 
completely stark crazy, and from what I understood, they came 
in there as sane as you and I. I don't know what they did to 
them or how they became that way, and I don't know what 
happened to them afterwards. For this was for me why I 
survived, why I was not physically tortured. I want to make 
that special case to this Committee as a recommendation of the 
way from incidents like this.
    I was not tortured, because as soon as I was arrested, my 
husband, who happened to be here, and other friends and 
colleagues who are journalists waged, first, an international 
awareness about my case and an outcry. Indeed, I should say 
that it was that and only that saved me. Because the colonel 
who was in charge of the detention camp called me my first day 
there and told me that I was going to be there until my husband 
returns and that if he does not return before my son who is 
seven years old turns 10, they will bring my son in there, too, 
to join me, and there was nothing anybody could do about that. 
But then when the international outcry started, they just had 
to let go. Indeed, when the Ambassador, the United States 
Ambassador to Nigeria at that time made a plea on my behalf, 
that was only when I was released, and those who did not enjoy 
that kind of privilege stayed on and God only knows what 
happened to them.
    So, my first--I don't know whether to call it a 
recommendation or a plea to this good Committee is that this 
kind of treatment there should be two steps of measures to 
counter it, one in the short run and in the long run. In the 
short run, always, I think there has to be a monitoring of 
situations in all countries, especially in countries where 
there is conflict and where there is potential of conflict. As 
soon as it is apparent that there is a potentially conflictive 
situation in any country--I don't want to just talk about mine, 
but in my country, this was the case--there has to be an 
international outcry over the fate of those who are in the 
opposition to the government or who are seen as being in 
opposition to the government who are going to end up as victims 
of this government, because when there is no outcry, a lot of 
things happen which nobody will ever be aware of the depths to 
which it has gone.
    As I am talking to you now, in Nigeria, a Committee has 
already been formed by parents who lost their children in the 
crisis in Nigeria from 1993 to 1998; parents who lost their 
children, whose children have not been accounted for, which is 
similar to the situation in Chile, in the years of penochia. We 
have such a Committee coming up now, because there are so many 
people who disappeared and nobody knows where the hell they 
are. The assumption is that they are dead or mad or something, 
but nobody knows and nobody has accounted for them. If there 
were some kind of international outcry at the beginning of the 
conflicts, I think it would have helped a lot.
    Second, I have learned that this Committee is thinking of 
sending out refugee officers to different countries. I think 
that as part of the bilateral relations--perhaps one of the 
things you should insist on as part of the bilateral relations 
between the United States and any other country like mine that 
are happy to have relations with others, there should be a 
transparency in the prison system and other holding centers. 
There has to be some kind of insistence on that, that there 
should be a monitoring of these prisons and the holding 
centers, because a lot of horrors go on there which I don't 
feel comfortable, I must say that. Even the little eyewitness, 
I don't feel comfortable talking about it, because it won't do 
any good to have any kind of emotional breakdown here. A lot of 
real horrible things go on there. I mean, like human beings 
being forced to eat their own excrement, but it does happen, 
and it did happen; I did see it, such horrors which really have 
to be prevented, and if we have the United States and any other 
international monitoring Committee insisting on the 
transparency of prisons and other holding centers, a lot of 
this can be prevented. They may not be stopped, but a lot can 
be prevented, and I think it would go a long way in helping the 
situation.
    In the long run, for a longer kind of solution, I think 
that, first, we should insist on the enforcement of 
international conventions against torture on human rights 
abusers, because there are so many such conventions. I know 
that, for instance, the one of 1984, the U.N. Convention, I 
think, Against Torture and Punishment--I don't remember the 
exact title, I am sorry--but I know this was a 1984 thing. I 
know, for instance, that Nigeria is significant to that 
Convention, but Nigeria is not a party to it, and not being a 
party to it means that it was not translated into the laws of 
the country and also, the U.N. monitoring body does not have 
the right to come into the country to look at the human rights 
situation in that country, and I think that there has to be an 
enforcement of such conventions even if a country as much as 
signs it, because torture and the human rights abuses, the 
governments that perpetrate it, they are not happy. They are 
ashamed of it themselves, and they are not happy to lose their 
own human quality, and it is not something they are proud of 
that they don't come out to say it. So, if there is an 
enforcement of these conventions and they get translated into 
laws, into the local laws in the country, it will at least save 
us from a lot more trouble than what is seen now.
    Second, I think that in the long run there has to be the 
United States and this Committee will have to encourage the 
building of civic associations; civic associations to 
discourage apathy, to encourage free speech, debate, and of 
course democracy, because what will happen in my country, for 
instance, is that people for 27 years--up to 1993 and now it is 
more than that; it is going on 30 years--for several years, we 
lived under a culture of silence, and all the civic rights we 
enjoyed were dismantled one after the other, one after the 
other. People just grew so used to being abused, they grew 
silent, very faithful. You bring--when I was arrested, two 
loads of soldiers came to arrest me. In my apartment--there 
were four apartments in the building in which I lived, and my 
neighbors felt quite sympathetic, yes. They took care of my 
kids and all that, but they did not raise their voice, because 
they knew that to raise a voice means that they will face the 
same thing, and it is just like that all the time. This is the 
situation that happens every day and perhaps still happens, and 
the civic society has almost been completely destroyed, and it 
has to be resuscitated for incidents like this to be stopped.
    Last but not least--and I know this is a very contentious 
issue--where it works, there should be some kind of sanctions 
against countries that do things like this. I repeat where it 
works. I know, for instance, that it would work in a country 
like mine, and I will give you reasons why. At the onset of the 
political crisis in Nigeria in 1993, the commonwealth to which 
Nigeria belongs, after the slaying of Kansalowua, one of the 
most famous writers in Nigeria in 1995, the commonwealth 
suspended Nigeria. They also suspended military training, any 
kind of collaboration between the military in Nigeria and 
Britain and other commonwealth countries. This really hit them 
hard. They didn't like that, because a lot of these soldiers 
are trained abroad anyway. The colonel in command of my 
detention camp was trained in Germany, Brazil, and Britain, and 
it really hit him hard that he couldn't go for more training 
and to get more equipment. A lot of the equipment they also use 
to torture people come from these places. So, the enforcement 
of that very limited sanction--it was very limited, you know, 
because they had some equipment they were still using anyway--
was bad enough for them. It hit them bad. Of course, they took 
it out on us, but at least in the long run it has done some 
good now.
    So, that kind of sanction, yes, really would work. That 
kind of disengagement, lots of multilateral and bilateral 
relations really does work, but more severe than that, I think 
that multilateral and international aids should be tied to good 
human rights standing in countries where there is any kind of 
conflict and where there is any kind of political 
desterilization and most especially in countries that are ruled 
by dictatorship. It is very important that human rights 
standing be tied to any kind of multilateral credit coming from 
either the World Bank or IMF or even just on bilateral 
relations between countries, because what is happening, what we 
see happening in some of these countries is that they pick 
loans and use it to buy guns. They don't use it to buy guns to 
defend the countries; they use it to buy guns to oppress the 
citizens, and this is--first of all, that really is not 
productive anyway, because it is not used for anything. When 
you suppress your citizens, the citizens are useless. They 
can't produce anything that will help to repay those loans back 
in the first place. In the second place, it only adds to the 
bottom of that part of that country and the countries to which 
refugees will now start flooding from that repressed country. 
So, I think that is indeed important that kind of sanction has 
to be there. There should be more normal to not to write credit 
to countries that have bad human rights records.
    Thank you.
    [The prepared statement of Ms. Olorunyomi appears in the 
appendix.]
    Mr. Smith. Thank you very much, Ms. Olorunyomi. Your points 
certainly rang very loud and clear with this member. We have 
tried in our Subcommittee repeatedly to condition the provision 
of non-humanitarian aid, military training, and military 
hardware to a number of countries, including Rwanda, including 
Indonesia where we have military training and where there have 
been serious human rights abuses, including the use of torture 
by military units. Your background as a survivor and overcomer 
but also a writer from a country where human rights have been 
trashed so completely for so long certainly helps to underscore 
your testimony. So, we thank you for that, and I can assure you 
we will be using your testimony to try to encourage others to 
see that there is a link and that governments do stand up and 
take notice when you bar training. We are doing right now even 
with northern Ireland a resolution that would bar training of 
the northern Ireland police, called the RUC, with the FBI 
Academy in Virginia because of its ongoing problems and 
suspicion of collaboration with terrorism. So, your points were 
very well taken, and we do thank you.
    Mr. M?

           STATEMENT OF MR. M, TORTURE SURVIVOR, IRAN

    Mr. M. Good afternoon, Mr. Chairman and Members of the 
Committee.
    I was born in 1961 in Iran and graduated from high school 
in 1979. I owned a construction company, a very successful one. 
I was arrested for being politically active against Khomeini 
and was imprisoned and tortured from August 1982 until February 
1983.
    I came to the United States to continue my education at 
Hamline University in St. Paul. Then the government of Iran 
seized all my assets and my family assets, and they were 
looking for me. I decided that I could not go back. I had 
become homeless and was sleeping by a grocery store. Even after 
I had a place to live, I felt wasted and sat home depressed.
    Then I was referred to the Center for Victims of Torture. 
They helped me to feel safe in this country by supporting me 
emotionally and physically. It was very effective treatment, 
and I got back to work. My first job was dishwashing. Then I 
worked on an ice cream truck on the street. Then I was a taxi 
driver; then a gas station owner. Now, I own four or five 
companies and employ about 40 to 50 people, and I am sure this 
will grow.
    But these are not the most important things. I am married; 
a very successful marriage. My wife is in medical technology. I 
have a beautiful baby who is four and a half years old. My son 
can talk and read at four and a half years--talk in two 
languages and read English. I am really proud to be here to 
talk about these things.
    But the main reason for being here, is to talk about the 
torture from the bottom of my heart. It takes a long time. The 
money, the business--these things everything come and go. They 
are not the main issue; but the feeling of safety in the heart. 
When I hug my son, still I am scared. When he is smiling at me, 
I am scared someone will torture him.
    I remember at night. During my torture, one of my tortures 
was ``Sit up, sit up, what is your name? Sit up, sit down, 
stand up, sit down, stand up, what is your name?'' Not for only 
one hour or two hours or 10 hours or 100 hours; snide looks 
behind the knives. It was tough. Then they put me out the door 
and shot me in the hand as if they were going to kill me. I 
hadn't done anything wrong. I just had some ideas. I was young, 
just graduated from the high school. I didn't know about 
politics that much, but they didn't care.
    I remember the night they were killing everybody--it is 
tough. When I talk about the torture, I cry. It is so difficult 
to describe and to talk about what I feel. When I think about 
myself, my wife, and my child seeking room, I am scared. Now I 
have money; I have a beautiful house; I have a beautiful wife; 
everything is mine, but still I am scared. Still, I am afraid 
to sit in my house. I came half an hour early to this room. I 
came to the staff; I walked away. The only way I go to a 
meeting is to have my attorney with me. Everybody has to be 
behind me to work. Still, I am scared. It is difficult to talk 
about these things.
    I got back on my feet, and was angry at times. I remember 
the night I was homeless by a grocery store in St. Paul, and I 
wasn't able to think. I was scared; I just went behind the 
garbage and hid there. Mr. Chairman, lots of people are wasting 
in this country like I was. We are able to work; we are able to 
be very successful in our life for ourselves and our community, 
but we need help. We need lots of help.
    We need a center like the Center for Victims of Torture. 
They are the angels in my life. When I hug my son, I am 
thinking no one can hurt him again like they hurt me, my wife, 
my family. This is tough * * * and it is not meaningful to talk 
about the torture, how they do it, and what is the best way. 
These things can only hurt us. It is important for the 
community to feel safe. The Center for Victims of Torture 
helped me a lot, but not everybody does so well. I remember one 
time there was a meeting at the Center. I saw some Iranian 
people. One of them is a dentist now. He is successful like me. 
But some others are not so successful. We need a chance to get 
back and do good for ourselves and our family and the 
community.
    Still, I sometimes have nightmares. Last week, I talked to 
Mr. Johnson, and he told me, ``If you need it, come back.'' It 
is like my home; it is my real home. After everything that 
happened, where should I go to talk about my nightmares, about 
my emotions? How could I talk to my son about that? The only 
place that I have to go is somewhere like the Center. Everybody 
opens up their hands and hugs me, and they understand what I am 
talking about. This is the main point. And that is the 
safeness. I was talking about.
    It is really an honor for me to talk about this and also 
painful. I would like to ask you this please help us as much as 
possible. To talk about the torture is not easy. I know lots of 
people myself, who need help. Sometimes I wake up in the middle 
of the night, and I look at my son, and I still cry. One night 
when a thunderstorm was coming, my son woke up and saw me 
sitting by his bed, and he told me, ``Dad, you are safe. Don't 
worry.'' How could I explain to him? Please help by giveing 
something--whatever is possible--to the centers. And I hope one 
day all torture will be done.
    There are lots of heroes. If someone in prison is executed 
in another country, they call them a hero. But for those who 
somehow get out alive, they are also dying, or thinking about 
suicide in silence, and no one knows what has happened. It is 
very important to me to support the centers around the world. I 
hope one day no one will use them because no one will need 
them, but this is reality, and we see people who need them 
every day. This is not politics, this is humanity, to help each 
other to achieve these goals, good goals.
    Thank you very much. I appreciate your time.
    Mr. Smith. Mr. M, thank you very much for your very moving 
testimony, and it will be a very strong and persuasive appeal 
that Congress and I think all interested people will hear, in 
support of the treatment centers, and I do thank you for that. 
It does help us to have your testimony and amplify it and 
hopefully get others to see the wisdom of more fully supporting 
the treatment centers. So, thank you very much.
    Mr. Johnson?

                STATEMENT OF DOUGLAS A. JOHNSON

    Mr. Johnson. Thank you, Congressman Smith, for your 
leadership and for holding these hearings; Mr. Tancredo, for 
your support and participation.
    I would like permission to depart from my text and simply 
have it inserted. Perhaps the advantage- or disadvantage- of 
being ninth on a panel is that the most useful things have been 
said, beginning with your own statement at the very beginning 
where you noted what had been done and what had not been 
accomplished by the Administration. There is no need for me to 
repeat that.
    I am moved by the testimony before me to reiterate that 
what we have learned at the Center for Victims of Torture is 
that torture is, first of all, targeted at leaders. The only 
reason that governments invest all of the technology and 
training people and establishing secret detention camps and so 
forth is that this is an effective way of dismantling the 
leadership of the opposition. As we have reviewed our client 
records, we are constantly amazed at the quality of the people 
who walk into our door--people who have been business leaders, 
people who have been labor leaders, peasant leaders, religious 
leaders. Time and time again, they are people in whom their 
societies have invested a tremendous amount of education and 
other resources. Their governments have turned against them and 
sought to eliminate them. And they do that because by 
decapitating the leadership of the opposition, they are able to 
create a culture of fear, a culture where people learn to be 
uninvolved in public life. Torture is a form of governance, a 
very perverse form of governance designed to create a culture 
that is able to be easily controlled by a small number of 
people. That is what we have learned from the lives of our 
clients over 14 years.
    Second, although we still have much to learn, we are filled 
with the hope that people can recover, that they can become 
future-oriented again, that they can be risk takers again, and 
like our friend here, that they often have very broad shoulders 
that other people stand on in order to help them deal with 
their resettlement needs.
    In America, providing care for victims of torture is 
recovering leadership for the refugee communities here to help 
them get along with the process of integrating into our 
societies. And for societies abroad, treatment is recovering 
leadership for the processes of rebuilding democratic cultures 
and societies and civic organizations. That is fundamentally 
what treatment and the treatment centers are about.
    I would like to thank the Members of the Administration who 
were here before, because, certainly, we at the Center for 
Victims of Torture have been working with all four of the 
offices as well as other parts of the State Department, in 
particular, to develop programs for victims of torture. There 
are parts of that process that have been extremely encouraging 
and parts of that process which have been, if not discouraging, 
at least have indicated that more education, funding and 
negotiation needs to occur for there to be more progress.
    I would like to focus a bit on that. I call attention to 
the testimony from the representative from USAID, which was 
very similar to the report that they submitted to the 
Appropriations Subcommittee earlier this year. The programs 
that were outlined are all very interesting, and many of them 
are very creative and important for working toward the 
prevention of torture. But I think very few of them actually 
respond to the needs of torture victims as promote the 
development of treatment programs. We find that somewhat 
discouraging and still quite puzzling. It is a very important 
issue for us, because, of course, when survivors of torture 
can't get care in the countries where they were tortured, they 
are going to seek that care in the United States or in Europe 
or elsewhere.
    Recently, three Members of my staff, including myself, 
attended a meeting in Copenhagen convened by the International 
Rehabilitation Council for Torture Victims (IRCT). It was the 
second meeting of a new consortium of treatment centers in the 
industrial world created to do training abroad and invest 
resources to try to create treatment centers in countries of 
repression or recent repression. At that meeting, the Torture 
Victim Relief Act was widely lauded by representatives from 
treatment centers from other parts of the world. They promised 
to take this home to Sweden, to Canada, and elsewhere, to use 
as a model to stimulate their governments to develop an equally 
comprehensive approach to the problem.
    So, there was that great enthusiasm. But were somewhat 
chagrined to have to point out that so far, despite the 
legislation, no money has been made available to help the IRCT 
strategy. That strategy is to develop new treatment centers in 
about 15 countries as well as to support existing centers, many 
of which are operating but not at a level which would allow 
them to really be learning centers and to disseminate knowledge 
in their communities as well as provide adequate levels of 
care.
    There are now over 200 treatment centers now in the world, 
and currently at least 100 of those are in the developing 
world. The later require support from the outside. The IRCT 
estimates that about $33 million is needed to provide support 
for those centers. The United Nations Voluntary Fund for 
Victims of Torture just met last month in Geneva. They had only 
$5.2 million to distribute. The European Union has separate 
granting programs for victims of torture of about $6 million. 
This leaves a gap of about $22 million needed to help secure 
these centers and help them grow. The important thing in our 
work in the IRCT Consortium, is to give a message both to 
Congress and to AID that the expectation is not that they will 
work alone in this. All of the centers represented in the 
Consortium are going back to their aid agencies to try to 
stimulate a coordinated response so that we can work together 
to maximize the impact of our resources and maximize the impact 
of bilateral aid.
    In contrast to AID, we would particularly like to salute 
the State Department's energetic support for the U.N. Voluntary 
Fund. That has been a very critical piece of work, although I 
believe much more work could be done by the Department to help 
stimulate other governments to match the American contribution 
and to build the U.N. Voluntary Fund to the level that it ought 
to be in order to signify a new resource to the world community 
in the fight against torture.
    We would also like to laud the work of Lavinia Limon and 
the Office of Refugee Resettlement on stimulating new programs 
to train of refugee resettlement workers and health care 
workers in the United States so that they can learn to 
recognize victims of torture and, as she said, make appropriate 
referrals for care. She reminded us, however, that it is a 
rather cruel joke to train a refugee service provider about the 
need to refer someone to appropriate care when there is no 
appropriate care available or when they are referred only to 
face a long wait. At the Center for Victims of Torture, the 
waiting list can be as long as six months before people in 
desperate need can get access to our services.
    In fact, what we need is a more comprehensive Federal 
response to this issue. During the war in Bosnia, we were asked 
by the government for the first time how many torture survivors 
we could take at the Center, and we had to say very few, 
because we were so small. We argued then that the United States 
should create the capability to respond to emergency needs as 
part of our national strategic repertoire. Once again, the same 
calls have come asking about support available to highly 
traumatized Kosovars and survivors of other very serious human 
rights atrocities, and yet our capacity is still limited. In 
some ways, the strategy that has been adopted by ORR up to this 
point, which was really to ask us to do training of others, has 
worked in conflict with our own need to build our clinical 
resources. Training increases services overall, but the only 
way we can create people who have the expertise in the field to 
be good trainers is to first have them involved in very 
intensive clinical programs where they learn from the 
experiences of working with torture survivors, what their needs 
are and specifically what helps them to recover.
    We are proposing to ORR that they should make less of a 
distinction between programs of training and programs of 
clinical work. To meet the strategies of ORR and the USAID and 
other agencies who want to begin responding through training to 
the needs of survivors, to these needs, we first need to create 
experts in the field, and that requires an investment into the 
clinical programs in the United States and established the 
clinical programs abroad. The latter centers need to be the 
community agencies, for example, that AID invests in, so that 
they become learning centers in their countries and cultures 
and are able then to train others in appropriate responses to 
the needs of torture survivors, be they the most serious cases 
or less serious cases.
    So, assuming that Congress appropriates the funds for the 
Torture Victim Relief Act to ORR, we hope it follows the above 
approach. Investment in client care is a most effective way to 
expand the treatment services available to torture survivors 
around the world. Mr. Chairman, I was going to note to you that 
the Torture Victim Relief Act was only authorizing funds 
through 1999 and 2000. Once again, you are ahead of us. I want 
to express our gratitude for introducing H.R. 2367, which 
authorizes money under the Torture Victims Relief Act for 
Fiscal Years 2001, 2002, and 2003. Also, I appreciate that the 
amounts are an increase over current levels. As more centers 
develop, they will need the investment of Congress, and we are 
grateful to you for taking leadership in this area.
    Under your leadership, in both the field of the prevention 
of torture and in the care of victims of torture, we have 
already seen significant changes in the attitude of our 
government toward torture victims. But what has been done so 
far is really just the tip of the iceberg of what should be 
done. We need your continued leadership and the leadership of 
everyone on this Committee to appropriate the level of funds 
that are necessary, and while we must not let up our efforts to 
prevent torture, we also cannot let down those who have been 
afflicted by this horrendous human rights abuse.
    Thank you.
    Mr. Smith. Mr. Johnson, thank you very much for your 
testimony, for your kind remarks, and I just want to publicly 
state how grateful this Subcommittee is for your wise counsel, 
for your insights that you have provided us. The information 
has been of tremendous value in crafting legislation, holding 
hearings, and, on a day-to-day basis, trying to mitigate 
torture on the prevention side and then, on the treatment side, 
to encourage the Administration by legislation and by jawboning 
to do more on this very, very important issue. I am very happy 
and pleased to hear you say that some of the other countries 
are looking to even do more. Certainly, the people in 
Copenhagen have done their fair share, and I think we all need 
to be doing much more than we have been doing.
    There are a couple of questions that I would like to ask. 
In terms of national awareness or international awareness, U.N. 
conferences sometimes get a bad name, because they don't really 
focus on something where the whole world has already spoken--as 
they have already spoken with U.N. documents outlawing torture. 
Very often, dictatorships, including the People's Republic of 
China and many other countries, go through great pains to sign 
the document to get all of the international accolades that go 
along with that, as the Chinese recently did with the 
International Covenant on Civil and Political Rights, only to 
continue with impunity to violate the rights and to engage in 
torture. The Torture Convention certainly is violated with 
impunity. As Ms. Olorunyomi has pointed out, Nigeria signed but 
there is no implementation; therefore, there is no enforcement.
    Perhaps the time has come for a U.N. Conference on Torture 
to really focus the world's resources on this barbaric practice 
that doesn't belong in any age but certainly not in an 
enlightened age, as we hope we are. It certainly ought to be 
eradicated from the face of the Earth. To have governments of 
the world participate, certainly might lead to a checking of 
the use of torture in their countries. Accountability does have 
some impact, and there seems to be very little of it. We don't 
want you, Mr. Johnson, to have to be in the business forever of 
dealing with torture victims. Although, sadly, it will probably 
go on for a long time. So, I just throw that out as something 
that I think we ought to be thinking about very seriously, and 
I ask you to give it some thought.
    Let me also say, Mr. Johnson, that I am as frustrated as 
you and I believe all of our witnesses are that the 
Administration was not forthcoming with money in Fiscal Year 
1999 for the overseas treatment centers. In our budget for this 
year, they looked long and wide to try to find some evidence 
that they plan on meeting the authorized levels for overseas 
treatment centers, as well. Hopefully, today's hearing and the 
participation of all four of our distinguished witnesses 
earlier will get them more energized to find the money; it is 
out there. They loathe earmarks on the appropriations side, 
although we obviously did it with the authorizing bill. But it 
certainly begs the question. If you are not going to meet the 
authorization level, then you put the onus on us to earmark, 
even though they tell us they don't need it, and they are going 
to do it anyway, because the money has not been forthcoming. 
So, we will work trying to make sure that money is there for 
Fiscal Year 2000.
    In terms of questions just for our survivors, it struck me 
in hearing all of you, how did you escape? You got out, 
obviously, but could you just briefly tell us how you 
eventually got out of the country and to the U.S. and whether 
or not any of you have any plans of going back? Obviously, 
going to Iran anytime soon would be----
    Mr. M. Oh, that is impossible.
    Mr. Smith. Impossible.
    Mr. M. Yes.
    Mr. Smith. But how did you escape?
    Mr. M. I waited in a third country until there was some way 
under the table that I could find my family. Let me put it this 
way: Mr. Chairman, even our home telephone has been seized by 
the revolutionary guard. When I got out of the prison, finally, 
my father got one of these houses and some money to a third 
person to get me out of there, and by help of the organization 
and key people, they got me out of the country to continue my 
education. Then bad things happened at home and I could not go 
back.
    Mr. Smith. Were U.S. immigration officers at all 
sympathetic to the fact that you had been tortured?
    Mr. M. That is a problem. One time, we had a meeting at the 
Center with INS people. The biggest problem when people like me 
go to a company, when we go to a bank, or somewhere, is that 
they want documents what is my financial statement, what is 
going on? When I got out of prison, how could I show a 
passport? How could I go back to Iran to ask Mr. Kohmeini for 
the passport? How could I ask them to give me documents after I 
was in the prison? How could I fell my torturers ``Sir, they 
need documents''?
    Mr. Smith. Understood, were they disbelieving of your 
story?
    Mr. M. Oh, absolutely. They need the documentation. They 
need documentation. I was probably one of the luckiest people 
at being believed in the United States, because the 
organization was behind me, but how about the rest of people? 
My brother escaped from the prison of Iran three years ago. I 
got him back to Europe; a lot of things were involved; the 
Center for Victims of Torture was involved. Even Mr. Johnson 
went to the Netherlands to visit him with two other people. The 
INS in Rome looked at his case. They asked us, ``Where is the 
documentation?'' I tolded the guy, ``He will be in the jail 
until he is 50 years old, if I need documents. How could I show 
documents to INS? Could I ask Iran for a birth certificate for 
my brother? A Passport?'' That is tough, but hopefully they 
understand now and it is much easier, I believe.
    Mr. Smith. Ms. Olorunyomi, you mentioned that the 
Ambassador had interceded on your behalf?
    Ms. Olorunyomi. Excuse me?
    Mr. Smith. That the U.S. Ambassador had helped you?
    Ms. Olorunyomi. Yes. What happened, in 1997, I was beaten 
twice. The first, March 20, it was only because the United 
States Ambassador did request that I should be released that I 
was finally released even though there was the international 
outcry, which saved me from the torture but didn't get me 
released.
    The second time I was detained in 1997, the night of 
November 2, this time it wasn't because of my husband; it was 
because of a colleague of his whom they wanted, and they didn't 
get him, and they wanted me to lead them to his house to 
wherever they could get him. In this case--I don't want to go 
into details--what happened was that, at this point, there was 
no Ambassador. It was someone in your embassy in my country, 
and there was no Ambassador then. But I was contacted by other 
officers of your embassies and was offered refuge, if I so 
desired. But I was reluctant to accept at that point because of 
my kids and all that. It took only a week to help me make up my 
mind, because exactly a week after that incident, I got a call 
from a friendly person who told me that they were coming again 
that night and that I had better get out of the house. So, we 
got out of the house; we went into hiding, and so I went back 
to contact this same gentleman in your embassy who had told us 
before that if we ever needed help, they would be there to 
help. But we had no papers of any kind--myself and the kids--
and we had to arrange for some people to smuggle us out of the 
country one night. So, what eventually the embassy did was to 
get us some contact in the American embassy in Ghana. ``Just 
tell them to expect us, and I will be there, and if they could 
help us with documentation to come here,'' and that was 
eventually what happened. That was quite a week. It took such a 
long time to get here.
    But like he said, the problem of resettling is related to 
just business, because, first, we came in with just our 
documentation we were given that day in Brazil and that brought 
us into the country, but it does not get past the INS, all the 
procedures of the INS, and all that we still have to get a lot 
more papers, which often are not forthcoming, because of the 
way we lived, and we have to get collaborative evidences from 
all our sources and all that, which sometimes is like you need 
a lot of luck to scrape through.
    Up to this moment that I am talking to you, I still don't 
have any kind of permanent status, and that is important for me 
and especially for my kids, because the trauma we went through. 
I haven't been to the Center for Victims of Torture, because I 
have told myself that I have to fight to go through this 
myself. But for my kids, for instance--I don't know if the 
Center for Victims of Torture have anything for kids--for my 
kids, for instance, it has been really a bad week. Up until 
this moment that I speak to you, they can't sleep in their room 
by themselves, because I don't know what happens to the 
psychology of kids seeing guns and having soldiers visit your 
house at night and all that stuff. I don't know what it does to 
them. I really am trying, but it has been more than and by 
sticking them back so further because immediately so far they 
don't feel safe. Forget the nightmares and all that; that is 
standard. Of course, they have been through it, and they are 
still going through it, OK, but I don't know if your center has 
anything for kids, but you know it has become almost a medical 
condition which we are managing, which we cannot manage back in 
the country, because it is not stable. It is not quite that 
civil yet.
    And while I am still on that topic, I must say that 
whatever support the Center for Victims of Torture is looking 
for, it is more than words of cause. In a country like mine, if 
we really do need such a center, and we need it not just for 
the victims, we need for the torturers themselves. I 
encountered soldiers in detention who were torturers, but the 
process of making them into what they became destabilized them 
so much that they themselves lost it, and they were dismissed, 
and let into the streets to do God knows whatever. And they 
made the whole streets unsafe for business, for anybody. We 
need a support structure like the Center for Victims of Torture 
back home, and all that.
    So, I don't know if that has answered your question.
    Mr. Smith. I appreciate that. Mr. Hoxhaj? Do you want to 
just do it in English? I saw your translator.
    Mr. Hoxhaj. [speaking through a translator] The way he got 
out was that I guess the OSC had just gotten in and about three 
days after the massacre they showed up, and I think it took him 
like about 12 days to work out a way for them to get them out 
of the country, and they got them out. And it is funny that you 
ask, will he go back? When I first met him, the first question 
he asked me is, ``Will anybody stop me from going back?''
    Mr. Smith. That says a lot. Thank you. Mr. Johnson?
    Mr. Johnson. I did want to say, regarding your question and 
issues that have been raised here, that we are concerned that 
the immigration reform bills that passed Congress several years 
ago really put, I think, an undue burden on torture survivors 
who arrive in the United States without proper documentation. 
The case that was referred to was one example, but, typically, 
people are escaping and often their documents are in the hands 
of the police. They are not going to get them back. We have 
several cases in Minnesota that we have been concerned about 
where torture survivors, when they have arrived, have simply 
been put in county jails and often kept there for extended 
periods of time. This is in itself retraumatizing. One client 
of ours was jailed through an extremely sloppy INS process, and 
began having heart problems almost immediately for the fear of 
being sent back.
    So, we know that these situations are extremely 
frightening. People don't know what is going to occur and it 
isn't explained well to them. They often have no access to 
legal counsel, and the threat to the survivor is ``We are just 
going through a process to send you home,'' which is precisely 
what they have struggled against. I know that there are 
situations, certainly, where we need to secure our borders, but 
at the same time it is extremely important that these 
procedures are sensitive and responsive to the needs of torture 
victims, the people we should be protecting.
    Mr. Smith. Is it your view that the training is proceeding 
sufficiently in such a sufficient way----
    Mr. Johnson. No.
    Mr. Smith [continuing].--that there are enough people out 
there to make sure that doesn't happen?
    Mr. Johnson. No. And I think if you talk to the people in 
the INS training program, they would also say with some 
frustration that the resources are not available for adequate 
training, and we would say that it was too bad that section of 
the Torture Victim Relief Act was removed for various reasons. 
Certainly working with people for half a day to try and get 
them some skills is a way to start; but then they need to be 
coming back for follow up. After they have some experience in 
the field and they start having doubts and questions, then they 
need more intensive training on how to handle these issues. So 
far, we have only had the opportunity to work with one group 
form INS political asylum leadership for an very extensive 
program of two weeks conducted by our center and the one at 
NYU/Bellevue. We have recommended one week of intensive 
training for all the roughly 350 political asylum officers. 
They, as a first priority all need to go through some form of 
training of this sort. But then we haven't even addressed, for 
example, training for INS officers at the ports of entry to 
determine credible fear and so forth. As far as I know, there 
has been no training whatsoever for that group of people.
    So, there is progress. We are also talking with the Foreign 
Service Institute about how they could implement the 
requirements of the Torture Victim Relief Act, but there is a 
lot of work left to be done.
    Mr. Smith. Earlier, one of the witnesses had said that some 
of the people might even appear to be stark crazy or that such 
an ordeal obviously could drive somebody to that status. How 
many people do you think we turn back who just appear don't 
have it together? Their story has holes in it, because they 
can't remember in a way that somebody who hasn't been through 
such trauma might remember it. They might have their dates 
wrong; they might have their years wrong, and somebody says 
``Oh, fabricator, out they go.'' They are not going to be given 
a real shot. Dr. Okawa? Because it seems to me that we miss a 
lot of real victims. I mean, there is layer upon layer, and 
they are confused, and that is where that training, perhaps, 
might help.
    Dr. Okawa. You are absolutely right that the survivors are 
not recognized. There is a mass of survivors that are not 
known, and their symptoms are not understood. I couldn't give 
you a number estimate, but the cases that I get are often 
survivors who have been denied and have gone through two legal 
processes already with INS. The point where I come in is at 
their final chance to stay. An immigration attorney may refer 
the client to me for a trauma evaluation to determine if their 
symptoms are consistent with the reported experiences. In many 
cases I cannot understand how they ever could have been turned 
down, because their histories of torture are profound. But 
because the client cannot tell a consistent story, a coherent 
story, and because often they may be so emotionally numb, which 
is one of the symptoms of trauma, that they don't cry so it 
doesn't appear that they really did experience the torture, 
they are denied. So, I think many, many survivors are turned 
back, and they are petrified to be sent back to their country.
    Mr. Smith. Thank you. Mr. Tancredo?
    Mr. Tancredo. Thank you, Mr. Chairman. Just, actually, a 
couple of very basic questions I think for Mr. Johnson in 
regard to the centers, and it goes to what we are talking about 
here, my first one. How do you actually determine that the 
people with whom you are dealing are the people who they say 
they are?
    Mr. Johnson. Well, it is a complicated issue for us, 
because when people have been tortured, they are told that no 
one will believe them, and as a therapeutic stance, our stance 
has to be to believe them. People need to know that they will 
be believed, and that is an essential part of the bargain of 
building a trusting relationship necessary for treatment. This 
is one of the reasons that our program does not provide 
documentation for political asylum cases. We don't see 
ourselves as an advocate at that level. We only do that for 
clients who have been seen by us for 50 to 100 hours, so that 
we know them pretty well. And being very experienced, our staff 
is able to understand when inconsistencies might have something 
to do with hiding a story as opposed to an inability to 
remember. When that has happened in the past, occasionally we 
have discovered that people are hiding that they themselves 
have been perpetrators as well--something that has just been 
raised as an important problem. More commonly, people feel that 
there is some part of their story that is still so shameful 
that it would keep them from being accepted by others and so 
they feel a need to hide it. Generally, these things work out 
clinically over time. There have been a few times when we have 
been surprised, not that the person was a survivor, but about 
their right name or something of that nature, and to what 
degree they are hiding it.
    An INS officer really does have a responsibility to sort 
out the facts and make those judgments. That is not our 
responsibility or our role. I think we hope to help the officer 
understand that even we might feel we make mistakes, even 
though the officers are going to have an hour with them and we 
might have 50 hours, and that it is okay on some level to make 
mistakes. But our view is that it is better to err on the side 
of protection of torture victims than on the side of 
restrictions that would destabilize a torture survivor.
    The other important issue is for INS officers to understand 
the range of emotions that they can expect from someone, 
something that Dr. Okawa just referred to. People often have an 
uneducated image of what a torture victim should look like that 
doesn't usually fit the clinical picture. And so it is 
important to work with INS officials to help them understand 
what the range of emotional responses, and intellectual 
responses could be from a survivor, so that they can pursue 
their job within a more scientific framework.
    Mr. Tancredo. Thank you. Of the 400,000 that we have--that 
figure that we have referenced several times indicating that 
was the number of victims of torture who are present in the 
United States, how is that arrived at? How did we come up with 
that? Is that an INS----
    Mr. Johnson. I would say it is a ``guesstimate'' from the 
community and from us based on a number of studies and factors. 
It is partly based on a series of clinical studies of various 
populations of refugees in the United States and in Europe. The 
clinical studies revealed the numbers of torture victims in the 
clinical groups and these numbers were applied, for example, to 
the Cambodian population. A number of early studies in the 
early eighties indicated that about 30 percent of the 
Cambodians had gone through Pol Pot's camps and experienced 
torture.
    Mr. Tancredo. I see.
    Mr. Johnson. Then there are certain other factors. For 
example, in 1990 to 1995, the U.S. admitted 100,000 survivors 
of the Vietnamese reeducation camps. When we look at the human 
rights reports of the reeducation camps, we would have to 
conclude that pretty well everyone who was there is a survivor 
of torture in one form or another. And, so, basically, the 
estimate comes from an amalgam of different considerations.
    Now, in April 1997, under the leadership of Senator 
Wellstone, the National Institute of Mental Health, ORR, INS, 
and a couple of other Federal agencies met with the treatment 
centers around the world to try and address precisely this 
issue of ``How do we know? How do we really get a grip on the 
extent of the need this?'' One result was a small series of the 
National Institute for Mental Health grants including one, for 
example, received by the medical Director of the Center, which 
are attempts to do more in-depth, scientific studies of 
particular communities so that we can build a better way of 
documenting the numbers of people. One problem is that torture 
victims, largely, don't self-disclose. There is a lot of shame 
and fear about self-disclosure. Many medical people don't want 
to ask the question, because of their fear, ``What would I do 
if I knew? '' And so the guesstimate needs to be replaced by 
more serious scientific inquiry.
    I might add again that the first version of the Torture 
Victim Relief Act that you introduced, Congressman Smith, 
called for CDC, I believe, to do a national study of the 
torture victim population. They basically said, ``We don't know 
how to do that.'' The April 1997 meeting and resulting NIMH 
grants were throught of as a way to build some experience in 
the field before a more specific national demographic study.
    Mr. Tancredo. Yes, well, it just seems as you attempt to do 
a number of things, including siting a center, where do you put 
it? How did you decide where you were going to be and if there 
were more that we were going to establish, where would they be? 
How would we come to those conclusions unless we had a pretty 
good idea of exactly what population we are talking about, 
where they are, and where their needs are greatest?
    Mr. Johnson. Exactly. Well, we do know which communities 
are most heavily affected by torture and where those 
communities tend to settle. For example, as I understand it, 
about 24,000 Somalis have come to the U.S. in the last three or 
four years, and of that group, 16,000 are in Minnesota. So, 
here is a population grouped in one area that has been very 
highly traumatized by torture and by war and is in need of 
services. There are other pockets of substantial groups of 
torture victims, but you would have to assume that almost every 
major city in this country that has a refugee population has a 
substantial number of torture survivors.
    Mr. Tancredo. And are most of the people who come in to 
your center--is it just by word of mouth? How do they--is that 
how they find you?
    Mr. Johnson. Well, we don't advertise, because we always 
have a waiting list. We try to create a situation where people 
are referred to us by refugee leaders, by other health care 
groups, or by human rights or related sorts of organizations.
    Mr. Tancredo. And is it primarily psychological services? 
Does it expand beyond that?
    Mr. Johnson. We have on our staff a team of physicians, 
including family practitioners and internists, a team of 
psychiatrists, a nurse, and social workers, in addition to our 
staff psychologists. There is also a whole network of surgeons 
and dentists and others who work as volunteers. We also have a 
team of volunteer physiotherapists and a team of volunteer 
psychologist. There are about 150 additional volunteers who 
work every week with clients on finding housing, setting up 
food, organizing in our churches for getting people involved in 
rebuilding community of various sorts, tutoring English as a 
second language or doing day care. We try to provide programs 
for families to help our clients become leaders again in our 
community. Eventually, many of our clients, because they have 
been leaders, go out to start their own non-governmental 
organizations or businesses. We also recruit volunteers to sit 
on our board of directors.
    Mr. Tancredo. Well, you can see how difficult it is in the 
way that you could become a victim of your success in that 
going back to the very first question about how you know with 
whom you are dealing. If you are providing the kind--if you are 
looking at this holistic approach toward treating these folks--
dealing with them, I should say, your clients, it certainly 
could--I could see a situation where people would desire your 
service even if they, perhaps, have not experienced the----
    Mr. Johnson. The most extreme forms of torture.
    Mr. Tancredo. Exactly. And, therefore, resource allocation 
becomes a problem, and that is what I was trying to get at.
    Mr. Johnson. Exactly.
    Mr. Tancredo. Anyway, I really appreciate it, because I had 
mentioned these are basic questions. I am on the other side of 
the learning curve here on the Committee.
    Mr. Johnson. Could I tell you what we did in response to 
that very important question?
    Mr. Tancredo. Oh, absolutely.
    Mr. Johnson. We have seen ourselves not only as a treatment 
center but as a constituency organization trying to make 
Minnesota, as an example, a safe place for survivors. We found 
that our legislature and our political leaders understood the 
view, that torture victims were targeted because they were 
leaders, and if given care, will be leaders again, capable of 
making tremendous contributions to our State. I should note 
that Lavinia Limon mistakenly said we never started with state 
funding; we have been privately funded for the most part. But 
for the first time two years ago, the legislature challenged us 
to train all of the health care systems in the State of 
Minnesota so that what we believe to be about 14,000 victims of 
torture would get greater access to care. We are essentially 
making a deal with those health care providers that they will 
open up their doors to the people who are already in their 
system but who aren't being treated as torture victims. They 
will begin to develop that expertise, and we, in turn, will 
take from them the most difficult cases, the ones that require 
the most comprehensive level of services. So, we can set up 
layers of services within the state so that we can respond as a 
State to the full range of needs, while not assuming that every 
survivor needs all of the kinds of services that the Center 
offers.
    The legislature also took this question of children 
survivors. We know that children of holocaust survivors have 
higher rates of depression and suicide than the population at 
large, and yet in St. Paul, Minnesota, our capital, something 
like 35 percent of the children in public schools and our State 
capital are refugee children. A large percentage of them are 
very likely to have gone through some kind of human rights 
atrocity in their families. So, we began a project funded by 
the legislature to work in Minnesota schools to teach how to 
work with refugee children as trauma survivors.
    My point in bringing up these programs is that they show 
how we are trying to become a learning center for our State, to 
concentrate, certainly, expertise in a group of clinicians, 
people like Dr. Okawa, to give them a chance to work full-time 
in this area, but in turn, to spin off other services that more 
broadly affect the communities. In my view, again, when AID 
talks about the need of developing community responses, they 
are ignoring the need, first of all, to create real expertise 
on how to deal with the worst cases and then to let these 
experts begin to develop the learning for the rest of their 
community. That is what we are trying to do at the Center, and 
we think it has been an extremely productive model.
    Mr. Tancredo. Thank you very much, Mr. Johnson. Thank you, 
Mr. Chairman.
    Mr. Smith. Will the gentleman yield on that? Mr. Johnson, 
do you share that Minnesota statute, for example, and that 
policy with the League of States or some other entity with 
other States so they can pick up on that basic policy?
    Mr. Johnson. Well, the other States don't have the centers, 
and so it is very hard for them to do it.
    Mr. Smith. Some of the States do.
    Mr. Johnson. Yes, and we do share it within the consortium 
of treatment centers in this country that Dr. Okawa talked 
about and with the treatment centers abroad to encourage 
learning from each other as much as possible and new policies.
    Mr. Smith. Yes?
    Dr. Okawa. I would like to speak just a second to the 
incidence of torture survivors in the Washington area. Unlike 
CVT, the Program for Survivors of Torture here in Virginia, in 
Falls Church, Virginia, is fairly new. We have been seeing 
torture survivors for years in the center in which we are 
located, but we received funding dedicated specifically to 
torture survivors a year ago, and in the first six months, with 
no advertisement, we had 96 referrals from Virginia, D.C., and 
Maryland. So, there are many, many survivors, and these 
survivors often say, ``Oh, I wish you could see all my friends, 
all the people in my housing complex, all the people in my 
organization.'' So, there is a great need in the Washington 
area.
    And one other point I would like to make is about the 
children. We do a lot of work with children of survivors, 
because there is an overflow effect of torture and trauma. It 
is almost like a big fountain where you have this huge deluge 
of water and it fills up the basins below and falls over into 
basins below. So, the trauma falls over to the children and 
then to the children's children and so on, unless there is some 
interruption of this cycle. And we have a specialist at our 
agency who works with children of war trauma and children of 
survivors of torture. We feel that it is a very important area. 
I'm glad you brought it up, because I know you worry about your 
children, and they do show the effects of the trauma 
experienced in their family or by their parents. As Yael 
Danieli quoted, ``Children bear the burden of memories that are 
not their own.''
    Mr. Smith. Thank you very much. First of all, let me 
conclude by thanking our distinguished panelists. I can tell 
you without any fear of contradiction, your testimony will make 
a difference in U.S. policy, with this Subcommittee and those 
who will read it. We will pursue the activist agenda that we do 
have with regard to legislation admonishing the Administration, 
being an adversary when they are dropping the ball, which 
regrettably they have done on occasion. But there are also some 
good things, as you pointed out, Mr. Johnson, that we can be 
very grateful for. In making sure that we all do the maximum 
possible and encourage other countries to do so as well, your 
testimony will make a difference. So, I want to thank you for 
taking the time and for your dedication. It truly is inspiring. 
Thank you.
    The hearing is adjourned.
    [Whereupon, at 4:50 p.m., the Subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             JUNE 29, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T1381.001
    
    [GRAPHIC] [TIFF OMITTED] T1381.002
    
    [GRAPHIC] [TIFF OMITTED] T1381.003
    
    [GRAPHIC] [TIFF OMITTED] T1381.004
    
    [GRAPHIC] [TIFF OMITTED] T1381.005
    
    [GRAPHIC] [TIFF OMITTED] T1381.006
    
    [GRAPHIC] [TIFF OMITTED] T1381.007
    
    [GRAPHIC] [TIFF OMITTED] T1381.008
    
    [GRAPHIC] [TIFF OMITTED] T1381.009
    
    [GRAPHIC] [TIFF OMITTED] T1381.010
    
    [GRAPHIC] [TIFF OMITTED] T1381.011
    
    [GRAPHIC] [TIFF OMITTED] T1381.012
    
    [GRAPHIC] [TIFF OMITTED] T1381.013
    
    [GRAPHIC] [TIFF OMITTED] T1381.014
    
    [GRAPHIC] [TIFF OMITTED] T1381.015
    
    [GRAPHIC] [TIFF OMITTED] T1381.016
    
    [GRAPHIC] [TIFF OMITTED] T1381.017
    
    [GRAPHIC] [TIFF OMITTED] T1381.018
    
    [GRAPHIC] [TIFF OMITTED] T1381.019
    
    [GRAPHIC] [TIFF OMITTED] T1381.020
    

</pre></body></html>
